C3

Appeal:
NINETH CIRCUIT APPEAL # : 18-16046

II TIE SUPREME COURT OF US
MADHU SAMEER
Appellant and Plaintiff
V

RIGHT MOVE 4 U ET AL
Respondent and Defe^anp^

m1

H
Eg IL#
^£j\ <BI fe
'mg?

i3

i

i

AFTER THE APPEAL IN THE NINTH CIRCUIT

FILED
AUG 2 1 2020
Appeal 18-16046

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Judgment from Judge Ishii

PETITION FOR WRIT OF CERTIORARI

Petitioner:
Madhu Sameer,Pro Per
5 Old Hospital Road,RD #1,
Whangaroa 0478
New Zealand
Ph:+64277097701
Email: madhu.bambroo@gmail.com

i

QUESTIONS PRESENTED

In June 2015,a cargo of personal belongings,in good condition are handed over to
the agent Right Move 4 U(RM4U)under a contract signed in California,US between
Madhu Sameer and Right Move 4 U for disassembly packaging at origin Fresno
California,moving,assembly and removal of debris at destination
Christchurch.(AppF,p. 129-131 )Parties agree that the goods will be insured for the
replacement value of $350,000.
The goods are insufficiently packaged at night into approx.500 boxes,and
unprofessionally loaded into a 40 ft container(FIRST CONSIGNMENT)(App F,173181)and all precautions required for proper insurance are ignored.Forty(40)items are
accidentally left behind by RM4U. Sixteen of these are then picked up as SECOND
CONSIGNMENT and the agent agrees to pay for freighting these to new Zealand.The
agent also offers to pay for carriage of 8 items as checked baggage(THIRD
CONSIGNMENT).The shipper is forced to destroy the rest.
RM4U then insures the goods only for $115,000(instead of $350,000)with
TALBOT Insurance,at second hand value1,and uses SHIPCO as the NVOCC to ship the
goods to new Zealand.RM4U buys cheap cargo space that stores the cargo on deck
without shipper’s consent thereby illegally reducing its cost at the shippers expense.
The FIRST CONSIGNMENT,sails to New Zealand from a Californian Port.The ondeck cargo is significantly damaged.Agent RM4U converts the SECOND
CONSIGNMENT,and refuses to pay for the carriage of THIRD CONSIGNMENT.
When the FIRST CONSIGNMENT arrives in Christchurch,New Zealand,the local
agent of RM4U,CRL tricks Madhu Sameer into signing the customs release,and uses the
original BOL prepared in US by SHIPCO to secure delivery orders that are used to move
the goods thru NZ Customs to its warehouse.
CRL then finds that 33% of the shipment has been damaged,prepares a new
inventory list and arbitrarily characterizes the damaged items as having been packed by
the owner(AppF,p.l50-163).Goods packed by owner are not covered by Insurance .CRL
then conspired with insurance agent TALBOT and RM4U to have the insurance cancelled
(AppF,p.l77)
CRL and RM4U then inform Madhu Sameer that they had “mistakenly”
underquoted for the contract in US,and demand extra money in excess to the contracted
price, also stating that they are not responsible for damages by RM4U(p.l90).
Given the conversion of the SECOND CONSIGNMENT,Madhu Sameer refuses to
pay extra,and seeks mediation through Federal Marine Commission(FMC).CRL and
RM4U inform FMC that they are agents of RM4U and will deliver the goods for $667 and
will seek the balance from RM4U.
However,once Madhu Sameer pays this amount,CRL demands $4051 more for
delivery as per the contract.When this amount is paid,it demands $990 more.When this
1A consignment of goods being transported,is,by norm,and by agreement,always insured for its replacement value.

amount is paid,it demands $1100 more.On each occasion,along with the additional
payment,CRL demands that Madhu Sameer also sign a waiver of liabilities,remove all
negative reviews it has given to the movers,and accept roadside delivery instead of
delivery as per contract.Each of these is a precondition for delivery.
Madhu Sameer is denied access to the BOL(BOL).In the absence of BOL,and the
terms and conditions outlined therein,Shipper Madhu Sameer sues CRL in New Zealand
seeking release of goods.CRL argues that it was never an agent of RM4U,and had entered
into a separate contract with Madhu Sameer prior to June 2015 while Madhu Sameer was
still in US.CRL presents several forged documents, and makes false representations of
facts, and laws to the New Zealand Courts to secure several Judgment against Madhu
Sameer,which state that the domestic laws of movement of goods(Carriage of Goods
Act)will apply to this international consignment, implying that multimodal transport
operator can dissociate itself from the chain of operators, contracy to intemation laws, US
laws, and NZ laws.
Shipper Madhu Sameer’s efforts to claim insurance are also sabotaged as the cartel
conspires to cancel the insurance coverage.Subsequently,several other victims of the
“gang” RM4U,CRL,SfflPCO,TALBOT come forward with similar stories of being
defrauded.
Shipper Madhu Sameer refuses to waive liability for damages,and refuses to remove
the negative reviews from the internet,and demands delivery pending money only
judgment.Defendants are willing to deliver only if Madhu Sameer waives liabilities, and
accepts a roadside delivery, and removes all negative reviews against them from the
internet.Defendant CRL refuses to deliver if any of these conditions is not met.
Madhu Sameer sues the agents/carriers for the value of the goods in US(this
complaint).Since no BOL has been provided,there is no clause incorporating
COGSA(p.68-77),which does not become applicable to the periods before loading and
post discharge.Therefore,the multimodal carrier is liable for the entire value of the
shipment under HARTER Act.
To illegally avoid liability,after the shipment has been moved thru customs using
SHIPCO’s BOL,the Carrier,NVOCC,and the agents CRL,RM4U destroy the original BOL
and conspire with container company COSCO.COSCO forges a new backdated
BOL(p.l49).This BOL from COSCO (p.l49)lists the container as a single unit,thus
limiting the liability for goods to $500 under COGSA(p.68-77)2.
CRL then claims that it was not a multimodal transport agent,it had no contract with
the agent at the origin,produces a forged quote that it claims to have been sent to Madhu
Sameer in June 2015 while she was in US.Using these fraudulent schemes and artifices,the
lawyers argue that their clients are not liable because Madhu Sameer had entered into a
contract with them in June 2015, which was ratified in Aug 2013, and under their
2 It must be remembered that the Customs Records and CRL’s own documentation show that CRL had
used the original BOL # 2114544(p.l54 - Arrival Notification)to move the goods thru customs.
m

purported agreement with Madhu Sameer, the contract was for domestic movement within
NZ,and therefore they can dissociate from the multimodal chain, and Carriage of Goods
Act(COGA)must be used to describe CRL’s role.
When a lawsuit is filed in US(this lawsuit), CRL retaliates by filing a fraudulent
Notice of Bankruptcy in New Zealand and has the shipper declared bankrupt,seeking over
$60,000 in attorney fee and costs(p.223-240).
Over Madhu Sameer’s protests,all the goods from FIRST CONSIGNMENT - with
replacement value approx.$350,000,and containing items of deep emotional value,are
either destroyed,or auctioned for $10,000,without assessment of damages and/or
value.SECOND CONSIGNMENT has been totally converted by RM4U.Information since
2015 has been exchanged using phones,and internet servers that are stationed in US or
bounced off of servers based in US.Federally insured banks,and banks stationed in US are
used for financial transactions related to the alleged fraud.
In the months that follow,at least 120 more cases like these are uncovered,revealing
a pattern of similar activities by two or more of these defendants where false advertising
and anticompetitive practices are used to lure consumers,the consumers are intentionally
underquoted for services,their goods/cargo/household effects are stolen,and/or
damaged,consumers are threatened,intimidated,and the rest of the goods are held as
ransom to secure additional money,and/or waiver of liabilities and favorable reviews.
These defendants,and some others,have been well organized for at least 6
years,employing various schemes and artifices,engaged in commission of repeated(more
than 2)predicate acts that constitute indictable criminal offenses affecting international
commerce,collecting unlawful debts,and there is an ongoing threat of continuity .Each
defendant uses the funds derived from such illegitimate acts,to fund the operations of the
alleged enterprise.
Defendants such offenses,schemes and artifices are the modus operande,used on all
clients departing from US,especially where the cargo is found to be damaged due to
unlawful on-deck storage. All ways of limiting the liability of the carrier is prohibited
under all international shipping laws,therefore these illegal schemes,including but not
limited to Bankruptcy Proceedings,are used to unlawfully evade liability for damages that
would normally apply under COGSA(p.68-77),Harter Act(p.67-68),Maritime Transport
Act of 1994(NZ)( p.364-368),Hague Rules,and Hague-Visby Rules.These offenses,and
offenses like these result in significant injuries to the public and consumer of these
services.
The “gang” uses the lack of legal expertise,and lack of “fee shifting” statute of
countries like New Zealand to illegally hold litigation in these countries where the victims
are then further defrauded and victimized by using political lobbying,and unlawful
personal connections,to secure judgments and attorney fee that are essentially illegal,and
void,in their favor,as in this case.

IV

TALBOT obstructed an investigation by California Department of Insurance by
providing false and fraudulent information to them that Federal Marine Commission had
ordered me to pay RM4U and I had refused to pay.
New Zealand government has made several orders and Judgements against me.Each
of them is in clear absence of jurisdiction, in violation of US laws COGSA(p.68-77)and
HarterAct(p.67-68), and Hague Visby Rules to which it is a signatory .They have deprived
me of my constitutional rights under First,Seventh and Eighth and fourteenth
Constitutional Amendments to Bill of Rights.
Even if NZ could establish jurisdiction over the dispute, New Zealand is also a
signatory to the Hague-Visby amendments of 1979 and routinely breaches this
international treaty by treating the international movement of goods as a domestic
movement and applying the domestic laws(Carriage of Goods Act)instead of Maritime
transport Act of 1994 of New Zealand(p.364-368)to the dispute at hand,which law is a
reflection of Hague-Visby Laws.I - and many others like me - are severely injured by
such violation of US laws,international treaties and by violation of New Zealand’s own
laws.The reluctance to respect, enforce international laws and treaties arises from
discriminatory animus towards outsiders.Therefore, the government of New Zealand is
implicated.
In this instance,three of the eight defendants maliciously,repeatedly evaded service
of summons and complaint,providing wrong address and contact details for service.The
District Court denied my request for fee waiver,refused to allow substituted service,and
barred me from using USM285 services,or services of Marshall.Nevertheless,each
defendant was emailed a copy of summons and petition,and therefore had received
preliminary Notice of Service.Court dismissed my complaint under FRCP 8,for not being
“short and plain”.
The questions before this Court are as follows :
1. Is denial of a legitimate request for fee waiver an error invited by the court when
defendants are maliciously evading service ?
2. Does FRCP 8 have an inherent conflict with the constitution and common laws ?
3. Which Court - US or NZ-has jurisdiction over the dispute ?
4. Are the Judgments from NZ valid and enforceable,or are they void as a matter of
law for lack/excess of jurisdiction,and void for fraud?
5. Which laws-Harter Act(US),Carriage of Goods By Sea
Act(US),Insurance(US),Maritime Transport Act of 1994(New Zealand), Carriage
of Goods Act(New Zealand),Hague Rules or Hague-Visby Rules(Intemational
Treaty),or others-are to be used to determine liability ?
6. Can a multimodal agent like CRL be allowed to dissociate itself from the
interconnected chain under the applicable laws identified in #5 ?
7. Which parties are liable for damages to the cargo and how is the individual
liability to be apportioned ?
8. Do the actions of these defendants constitute Fraud?
9. Do the actions of these defendants constitute RICO violations?
10.Does the bankruptcy proceeding against me constitute Abuse of Process ?

Once the procedural issues are addressed,most questions are simply extensions of,and
derivatives of Question # 3 and 5.The court may choose to address any two or more of the
most important of these questions that will facilitate a precedent and hopefully deter
international crimes.

VI

LIST OF RELATED CASES

Description

Status

1

Complaint filed with the Insurance Board

2

Mediation in the Federal marine Commission

SL

Case #

In US

3

1-17-CV-00886
Sameer v RM4U et al

Complaint filed in the District Court,Eastern District
of California

Declined due to
false representation
by TALBOT
representatives
Failed after
defendants
repeatedly breached
the terms and
conditions of
agreement
Dismissed by judge
Ishii

4

18-16046
Sameer v RM4UEt al

Appeal in the Ninth Circuit - the appeal was not
taken,only a statement was taken.

Affirmed;Rehearing
denied

5

This petition
Sameer v RM4UEt al

This Petition in the Supreme Court of US

Pending

In New Zealand
1
2
3
4
5

6
7

8

CIV-2015-009001566
civ-2015-009001566[2017] NZDC
26138
2018-009-003662

Complaint filed with the Disputes
Tribunal,Christchurch
Complaint Moved To District Court
District Court Orders The Complaint To Be returned
To the Disputes Tribunal
Disputes Tribunal Ruling
s-50 Appeal in District Court Ruling

_____Private Prosecution Ruling_____
Bankruptcy Notice Filed By Defendant
Consignment Liquidated
Goods worth $350 sold for $10,000,most purchases
____ _____ by CRL and related people__________
Bankruptcy

Vll

Defendant To be
Paid $9,000
Defendant to Be
paid $19,000
Permission Denied
Defendant To be
Paid 60,000

LIST OF PARTIES TO PROCEEDINGS

.

All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:
Petitioner
1. Madhu Sameer
Defendants
2. Right Move 4 U
3. Michelle Franklin
4. Dylan Cortino
5. Conroy Removals Ltd
6. Fiona Conroy
7. Monica McKinley
8. Shipco Transport Inc
9. Talbot Underwriting Ltd
10.XO Moving Systems Inc

Vlll

Table of Contents
IN THE SUPREME COURT OF US....................................................................................................................

i

QUESTIONS PRESENTED...................................................................................................................................

ii

LIST OF RELATED CASES....................... .............................................................................................................

vii

LIST OF PARTIES TO PROCEEDINGS...................................................................................................................

viii

INDEX OF APPENDICES......................................................................................................................................

x

PETITION FOR WRIT OF CERTIORARI......................................................................................................

1

OPINIONS BELOW...................................................................... ..................................................................

1

JURISDICTION.................................................................................................. .............................................

1

CONSTITUTIONAL PROVISIONS & STATUTORY LAW........................................................................................

1

STATEMENT OF THE CASE.................................................................................................................................

1

A.

The Freight Forwarding Industry,Antitrust Laws & the Laws Of Transportation.....................

3

B.

Foreign State Immunities Act(FSIA).........................................................................................................

7

C.

Schemes & Artifices Used By Operators To Evade Liabilities.................................................................

8

D.

Allegations...............................................................................................................................................

11

E.

Background Facts........... ..........................................................................................................................

12

Contract ......................................................................................................................................................

12

Packing by XO Movers............... ................................................................................................................

13

Conroy Removals & Arrival of FIRST CONSIGNMENT in NZ,Conversion of SECOND CONSIGNMENT,and
REFUSAL To Pay For THIRD CONSIGNMENT...............................................................................................

13

Attempted Mediation By Federal Marine Commission & Repeated breach of Mediation Agreements......14
TALBOT'S Misrepresentations To California Department of Insurance......................... .............................

16

Destruction of the Original BOL & Forgery of a New BOL............................................................................

16

Legal Proceedings In NZ................................................................................ ...............................................

16

Legal Proceedings In US..........................................................................................................................

17

WHY MUST THE REVIEW BE GRANTED.............................................................................................................

18

A.

Federal Questions & National Interest.....................................................................................................

19

1.

Which Law .............................................................................................................................................

19

2.

The Need To Enforce US Jurisdiction & US Laws in COGSA/HARTER Claims......................................

19

3.

Need To Prevent,Punish & Deter International Crime.............. .....................................................

20

Conflict Of Laws........................................................................................................................................

24

a.

Refusal To Schedule Proper Hearings Represents An Invited Error....................................................

24

b.

Managing Court Docket.......................................................................................................................

24

c.

Notice Requirements Cannot Be Enforced When Defendants Are Evading Service..........................

25

d.

Conflict Between Laws Of US,NZ,and International Treaties,and conflict with the Judgments from

F.

4.

New Zealand.................................................................................................................................................

25

e.

Conflict with FRCP 8.........................................................................................................................

25

f.

Conflict Between US laws and NZ laws makes The Judgements Void................................................

28

ix

5.

Void Judgments - Are These Judgments Made In Absence or In excess of Jurisdiction and are therefore

Void ?...............................................................................................................................................

28

6.

Petition Must Be Granted To Maintain Consistency Of Decision Making (Splits)..................

30

7.

Unconstitutionality..........................................................................................................

35

a.

Unconstitutional For Excess Of Jurisdiction.........................................................................

35

b.

Unconstitutional For Fraud,Conspiracy,Violation of RICO................................................ .

35

Petition Must Be Granted Because Violation of Civil Rights Under Color Of Law & Statutes

36

Private Interest.............................................................................................................................

37

Risk of An Erroneous Deprivation of Interests etc......................................... .............................

39

Governmental Interests...............................................................................................................

39

Judge Ishii Was Unqualified.....................................................................................................

39

SUMMARY & CONCLUSION...............................................................................................................

40

PROOF OF SERVICE.........................................................................................................

41

8.

9.

INDEX OF APPENDICES

Page

Appendix

Description

Appendix A
Appendix B
Appendix C
Appendix D
Appendix E

Denial of Petition for Rehearing/En Bloc
Appellate Decision from Ninth Circuit
Decision from District Court
Statutory Laws & FRCP
Opinions From Other Courts
Opinions on Rights of Pro Se Litigants
Opinions on Crimes Against US
Opinions On Void Judgments
Opinions on Civil Rights Violations
Opinions on Fraud Upon The Court
Opinions on Conspiracy
Opinions About RICO Violations
Evidentiary Documents
Contract with RM4U
Offer to Pay for THIRD CONSIGNMENT as Checked
Baggage (to send the shipment on the Plane
Offer to Pay for seafreight of SECOND CONSIGNMENT
Prepayment of $1,200 by Cheq to RM4U
Packing List 1
Packing List 2 and correspondence
Packing List 3 and corrrespondence
RM4U’s Refusal to Pay for seafreight of second shipment
New, Inflated Invoice from RM4U
Arrival Notification from CRL- Aug 13, 2015, with BOL
cited as #2114544
SHIPCO’s Sample Bill Of Lading

Appendix F

x

43

45
49
60
104
105
105
105
107
109
111
115
118
121
122
124
125
132
134
139
141
142
143

Forged COSCO Bill of Lading
Inventory & Condition Report from CRL
Email communications with Assessor for valuation and
damage assessment-FIONA never allowed any assessment of
valuation and damages
Email from CRL refusing permission for assessment of
valuation and damages

NZCourt

Docs

Appendix G
G1
G2
G3
G4

Appendix H

Photographs of the cargo and container
Email from Talbot informing that The insurance has been
cancelled due to purported non payment of premium
Emails to/from Monica McKinley advising dispute
Statement/Final Invoice from CRL unilaterally increasing
Storage charges
Emails from CRL attorneys demanding waiver of liabilities
Email from me to CRL attorneys requesting delivery as per
terms and conditions and offering waiver of liabilities under
duress
What Other victims of CRL/RM4U/TALBOT say
Motion informing the District Court of threats and
intimidation tactics
Order/Judgement from Disputes Tribunal
Court Order Denying Permission For Private Prosecution
Bankruptcy order from NZ Court
Another RM4U Victim Mohd Rana’s
Complaint to FMC
Complaint
Brief
RM4U’s Opposition/Response
Decision
Cargo Insurance Calculator
Carriage Of Goods Act (NZ) for domestic
Shipments
Martime Transport Act (NZ) reflecting Hague
Rules
Email from Fiona refusing partial delivery of goods

149
150

164
will
provide
later
169
177
178
182
183,193

191
195
199
204
213
223
240
243
289
300
306
338
340
364

369

Cases

Am. Bonded Warehouse Cory, v. Compamie Nationale Air France, 653 F. Supp. 861 (N.D. Ill.IMZl •• 35
Avvlins v.State Farm Mut.Auto.Ins. Co

22

Azhar v Conley....................................

38

Bahl v Bank of America

26

Bailey v. Taaffe.........

24,37

Beeserlv....................

22

Boddie v. Connecticut.

39
xi

26,38

Braxton v. Municipal Court.
Buckley........

23

Bulloch v. US

22,36
39

Callahan v. Chatsworth Park, Inc

37,39

Callanan v.US.364 U.S.587.593-94(1961)

24

Castro v. US

City ofSan Jose v.Superior Court (1974) 12 Cal.3d 447,462[115 Cal.Rptr.797,525 P.2d 701,76 A. L.R.3d
40

1223
Colsate Palmolive Co. v. S/S Dart Canada

6

Columbia Machine. Inc, v. DFDS Transport (US), Inc., 2008 A.M.C. 640 (C.D.Cal. 2007)

6

Conley v. Gibson :: 355 U.S. 41 (1957)

21

Corlev v. US.556 US.303.314 (2009)....

26

Curie v. Superior Court.............................................................................................................

40

Curtis & Assocs.v.Law Offices ofDavid M.Bushman, 758 F.Supp.2d 153,176 (E.D.N Y.2010),

31

Curtisv.Law Offices ofDavid M.Bushman.443 F.Ayp’x 582 (2dCir.20ll)

31

Dale v. Colasiovanni, 337 F. Sudd. 2d825, 842-843 (S.D. Miss. 2004)

35

Daley v. County ofButte

24

Deltamax Freight System v. M/VAristotelis.1998 WL 1110395. 1999 A.M.C. 1789 (C.D.Cal. 1998)....... 6
Denhem and Sup Ct..........

24

Dickerson v US Steel Cory

37,38

Dickson, Carlson & Camvillo v. Pole

37,39

Dunham v. Dunham

22

Favila v.Katten Muchin Rosenman LLP

26

Grable & Sons Metal Products, Inc, v. Darue Engineering

19

Haines v. Kerner 404 U.S.519. 520-21, S. Ct. 594, 596, 60 L.Ed. 2d 652 (1972)

27

Hak Fu Huns v. Warren Wans (1992) 8 Cal.App. 4th 908, at 931.

26
37, 39

Hammerschmidt v. US.265 U.S. 182(1924)

19, 25,28

Harter Act
Hibbsv.Winn.542 U.S.88.101 (2004)

26

Hihbs v. Winn.542 U.S.88.101 (2004) (quoted in Corley v.US,556 U.S.303,314 (2009)

26

Hotel Last Frontier v. Frontier Prop

26
37,39

Jannelli v. US.420 U.S. 770.778(1975)
Xll

In re Grand Jury Proceeding Related to M'VDELTUVA. 752 F. Supy. 2d 173, 179-80 (D. PR. 2010), .35
In re Levander

22

In re Marriage of Flaherty.................................... ......................................................................

28

In re Village ofWillowbrook........................................................................................................

22,36

Institute ofLondon Underwriters v. Sea-Land Serv., Inc., 881 F.2d 761, 763-64 (9th Cir. 1989)

6

Jones v District of Columbia

38

Kearney v Hudson Meadows Urban Renewal

34

Keller v. Central Bank ofNigeria, 277 F. 3d 811 (6th Cir. 2002)

35

Kenner v. C.I.R

22

Kensington Intern. Ltd, v. Itoua, 505 F.3d 147 (2d Cir. 2007)

35

Kensington Intern. Ltd, v. Societe Nationale Des Petroles Du Congo, 05 CIV. 5101 (LAP), 2006 WL
35

846351. at *13 (S.D.N.Y. Mar. 31. 2006)
Kim v.Kimm.884 F.3d 98 (2d Cir.2018)

31

Little v. Streater

39

Logan v. Zimmerman Brush Co

39

Lyons v. Wickhorst..................

26

Marbury v. Madison

38

Mathews v.Eldridge.........................................

37

Matyv. Grasselli Chemical Co., 303 U. S. 197

27

McCutcheon,.............................................

23

Mizell v North Broward Hospital District

37

Musick y Burke.913 F2d. 139069th Cir. 1990)

24

Nakaharav.Bal.No.97 CIV.2027.1998 WL 35123.at *9 (S.D.N.Y.Jan.30,1998)

31
33,34

NCNB National Bank ofNorth Carolina v Tiller

37

Osborn et al. v. The Bank of the United State

6

Pannellv. US Lines. 263 F.2d 497 (2d Cir. 1959)

38

Paul v Davis
People of the State ofIllinois v. Fred E. Sterling............................................

22,36

People v Ramirez............................................................................................

,38

People v. Beasley.............................................................................................

23

Polling v. Hovnanian Enterprises. 99 F. Sudd. 2d 502, 506-07 (D.N.J. 2000)

27

RatzlafV.US.510 US. 135..140-41 (1994)........................................................

26

Xlll

Rotella v Wood (2000)528 US 549120 S CT1075.145 L Ed 2d 1047.2000 CDOS. 1357

33

Santiago v Philadevhia.............................................................................................................

37,38

Saudi Pearl Ins. Co. Ltd, v. M.V. Aditva Khanti, 1997 U.S. Dist. LEXIS 7663 (S.D.N.Y. 1997)

6

section 1963.............................................................................. ......................................................

12

See Transamerica Cory, v. TransAmerica Multiservices Inc, etal.. No. 1:18-cv-22483 (S.D.Fla.)

32

Shearin v E F Hutton Group Inc.....................................................................................................

33,34

Slavin v Curry..................................................................... ............................................................

32

Slavin v. Curry

32 '

SNC S.L.B. v. MZVNewark Bay, 111 F.3d 243, 245 (2dCir. 1997)

6

Southwav v. Central Bank ofNigeria. 198 F.3d 1210 (1 Oth Cir. 1999)

34

Southwav, 198 F.3d at 1214-15

35

Spector v. Superior Court.....................

39

Sun Savings & Loans Assn v Dierdorff.

33,34

Tannenbaum v. US, 148 F.3d 1262, 1263 (11th Cir. 1998)

27

passim

Tirouda v State

33

Turkette
United Bhd of Carpenters & Joiners Local 610 v Scott

32,38

US v Alonso............................................................... .

34

US v Ambrose

34

US v Baker

33,34

US v Benny

34

US v Blackwood.

33,34

US v Castilano

33,34

US v Coonan

33

US v Davis

34

US v Freeman

34

US v Frumento

34

US v Provenzano

33

US v Scotto

33,34

US v Stratton

33,34

US v Sutton

33

US v Sutton (1979.CA6.Ohio) 605 F2d260

33

xiv

US v Thompson............................................................

34

US v Yarbroush (1988, CA Wash) 852 F2d 1522.........

33

US v. Campa, 529 F.3d 980, 1000-01 (11th Cir. 2008)

35

US v.Eisen.974 F.2d 246 (2d Cir.1992)................:.....

31

US v. Kissel

36

US v.Neusom

36

US. v. Jordan

40

Vimar Sesuros YReasesuros S.A. v. M/VSky Reefer. 515 U.S. 528, 536 (1995)

4
28

Zeizler and Hermann
Statutes

18 U.S.C.§ 1951

23

18 USC 659

11

28U.S.C. 1605

7

28 USC 1602

7

42 USC 1985

37,38

46 USC 30706

9, 10

CCP 631

30

COGA

10
passim

COGSA

26

Del Junco v.Hufnasel

25,26

FRCP 8
HARTER

8, 9, 10

Maritime Transport Act

8, 9, 25
27

Rule 15

26, 29

Rule 8
section 1341

11

section 1343

11

section 1344

11

section 1512

11

section 1951

12

section 1952

12

section 1957.

12
xv

section 2315

12

section 659

11

sections 2314

12
19, 32

USM285
Other Authorities

Carroll Towins................................................

38

Committee on Code of Conduct for US Judges

40

Foreign Sovereign Immunities Act..................

19

FSIA

35

Hague Rules.........

8

Hague Visby Rules

8

Hobbs Act of 1946

23

John Greacen, Greacen Associates LLC, "Ethical Issues for Judges in Handling Cases with SelfRepresented Litigants.............................................................

21

Kenner vC.IR.387 F.3d.689(1968):7 Moore's Federal Practice

36

Morley 2016

23

Posner,Economic Analysis ofLaw

38

Constitutional Provisions

Article I, Section 16.....................

30

California Constitution,Article VI

39

xvi

IN THE SUPREME COURT OF US

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The decisions denying Petition for Rehearing appears at Appendix A.The Appellate
Decision from Ninth Circuit appears at Appendix B.The Decision from District Court appears
at Appendix C.
JURISDICTION
The Judgment of the Court of Appeal,Ninth Circuit,was entered on 12/13/2019. A Petition for
rehearing was denied on 3/23/2020.This petition is being mailed on or before 21st
August,2020. Courts jurisdiction rests on 28 USCS 1254(l).There is also diversity of
citizenship and the amount in controversy is in excess of $75,000. The complaint alleges an
ongoing conspiracy.Two defendants are citizens of New Zealand.They have substantial
business interests in US.Supreme Court has original/exclusive jurisdiction under 28
U.S.Code § 1251(b)(3). Since the complaint was filed in 2017,there are several new judgments
and Bankruptcy orders against me from new Zealand Courts (p.204-238)and my cargo,a 40 ft
container of personal belongings has had its contents stolen,liquidated or otherwise destroy ed.I
was declared bankrupt,and have been ordered to pay over $60,000 to Conroy Removals and
Court Admin fee(p.223-240).Each of these orders obtained from New Zealand Courts, is in
clear absence of jurisdiction.The Department of Justice,Government of New Zealand is to be
joined in this suit3 for damages.Section 1330(a)of the Foreign Sovereign Immunities
Act(FSIA)gives federal courts original jurisdiction in personam against foreign states, Two
defendants are New Zealand citizens.Supreme Court’s original and exclusive jurisdiction
rests on 28 U.S.Code § 1251(a).
CONSTITUTIONAL PROVISIONS & STATUTORY LAW

See Appendix D for Constitutional Provisions and Statutory Laws & for Federal Rules,and
Appendix E for Opinions of Other Courts
STATEMENT OF THE CASE

This Petition arises from a civil suit 1-17-CV-00886 filed in the Eastern District of
California,US in 2017,seeking declarative relief,injunctive relief and damages.Defendants are
members of the shipping fraternity who were hired in 2015 to transport my personal
belongings,with replacement value of over $3 50,000,from California,US to Christchurch,New
Zealand.the consignment was significantly damaged.Therefore defendants conspired between
themselves to convert my goods,deprive me of insurance coverage,extort money from me by
holding my consignment as hostage,to illegally evade their liabilities under Flarter Act(p.6768),COGSA or other laws.They concealed/destroyed BOL,forged several documents,made
3 The legislative history of the FSIA at 1976 U.S.Code Cong.& Ad.News 6614-6618,states in part: "[A]s a
general matter,entities which meet the definition of an "agency or instrumentality of a foreign state" could
assume a variety of fomis,organizations,such as a shipping line or an airline,a steel company,a central bank,an
export associations governmental procurement agency or a department or ministry which acts and is
suable in its own name.Id.at 6614.
1

false representations of facts,and laws before various courts in US and in New
Zealand,circumventing laws and regulations related to prohibitions on waivers on carriers’
liabilities imposed by US laws,and fraudulently obtained Judgments and Bankruptcy orders
against me (p.223-238)- all with the purpose of unlawfully evading their liabilities for damage
to the cargo.As a consequence,I have direct losses and injuries totaling over $350,000,and I
seek consequential and punitive damages of over $2.5m.
Although the entities have legitimate business goals,they periodically come together to
engage in predicate acts that fulfil all characteristics of a RICO offense.The undersigned has
identified over one hundred and twenty(120)consumers within the past 3 years, who have been
scammed by two or more of the defendants named in this suit4. The complaint also alleges a
conspiracy to deprive me of civil rights under color of law,and that defendants conspired to
have me declared bankrupt (p.223-240)with the sole purpose of illegally evading their
liabilities.Such acts constitutes Abuse of Process and malicious prosecution.I seek the help of
the government of US to punish such crime,establish deterrents and precedents,prevent further
crimes of this nature,and compensate this Plaintiff,in that order.
Defendants were represented by powerful cartel of attomeys.My complaint was
dismissed by the District Court in preliminary stages,without any consideration of merits and
my pro per status,the severity of RICO allegations,threat of continuity,or the limitations
imposed by lack of discovery,neither did it construe the complaint liberally .The basis for
dismissal cited were:
a) The complaint did not fulfil the FRCP 8(a)(2)requirement in that it was not a
short and plain statement: This basis is unconstitutionally vague and subjective
and therefore cannot form the basis for dismissal.
b) Defendants were not properly notified/served: Here 4 out of 10 defendants
repeatedly .maliciously evaded service and provided false address[i8 use 1342].The
Court arbitrarily denied my fee waiver,and refused to allow substituted service,and
these denials barred me from using USM285 for service.
c) The complaint was beyond amendment after third amendment: This is
untrue.Two amendments to the complaint were made only because new parties were
joined to the case.Therefore,there was only one effective amendment made to the
contents of complaint. Several more should have been allowed.
d) The allegations seemed implausible: Here,the lower Court became the trier of
facts,and therefore exceeded their jurisdiction.Allegations of RICO are construed
broadly,and the term “implausible” is also constitutionally vague.
e) The complaint sought excessive damages: Precise computation of damages is
explained in the complaint.The amount of compensation was a matter of fact,to be
tried by trier of the fact.
I have consciously decided to proceed pro se at this stage but intend to retain an out of state
attorney.The federal questions are of national importance,of public interest,and are raised to
create precedents.Other Courts across states and internationally have ruled differently on such
issues.Below is a brief background of laws involved:

4 See complaint filed by Mohd Rana,relocating from US to Pakistan.(p 241-338).Mr Rana was treated exactly
the same manner by RM4U who had teamed up with a set of different players this time.I identified 3 more
victims,from UK,who were treated exactly the same by CRL.
2

A. The Freight Forwarding Industry,Antitrust Laws & the Laws Of
Transportation
Shipping is the lifeblood of the world economy,carrying 90% of international trade with
102,194 commercial ships worldwide.In 2016,2017,and again in 2018,global seaborne trade
volume was estimated at approximately 11 billion metric tons per annum.( Statistica, Markets,
https://www.statista.com/markets/ Retreived 8/17/2020).Of this cargo transport, the relocation
industry in US is $25 billion a year.The sector employs more than 122,600
people,predominantly in small business,with 47.8% of industry companies employing less
than five people and just 8.5% of industry companies employing 100 or more people.This
Petitions affects each one of these employees and organizations.
When US citizens relocate internationally,their household goods have to be
disassembled,packed,picked up,and sent to a cargo terminal at the port of origin.Ships are used
to freight the cargo to the destination. At the destination,it has to be picked up from the cargo
terminal,processed thru regulatory fonnalities like customs,moved to the local address at
destination,unpacked,assembled,and debris and waste removed.A shipment directly from the
shipper's place to the destination's known as a door-to-door shipment,or multimodal
transport5.
Two US laws concurrently govern the transportation of Cargo in international
waters.The Harter Act(46 USC 190 et seq.p.67-68)was enacted in 1893 .Carriage of Goods
Act(COGSA) was enacted 1936 (p.68-77).The Harter Act applies when COGSA does not,or
sometimes they apply concurrently.
Both Harter Act(p.67-68)and COGSA(p.68-77))govem multimodal transportation of
goods traveling to or from a port of the US ex proprio vigore(“by its own force”).46 U.S.C.§
30701 Note §§1,13.They govern the rights and responsibilities
between shippers of cargo and ship-owners regarding ocean shipments to and from the
US.The Harter Act(p.67-68)differs from COGSA(p.68-77)in several respects:
5 Often these prime contractors like CRL retain small time agents like RM4U and SHIPCO for front end
marketing to procure business for them.Because of the small size and general insolvency of the small
agent,any wrongdoings like antitrust violations(see Sherman Act,Clayton Act„p.61-66)and contractual
violations can go unnoticed without affecting their reputation. These subcontractors also serve to
deflect,reduce,or eliminate their liabilities.When these front end agents like RM4U enter into a contract with
the innocent customer,be it for a contract for service,for insurance coverage,or for shipping thru a carrier,they
insert clauses that would invalidate their liabilities,and then intentionally perform acts that fulfils those
exception clauses.Their quotes,and their actions are therefore a farce,to lure unsuspecting customers into their
trap,intending to defraud these customers.For example,after securing funds for packing,moving,insurance
etc,they intentionally provide substandard packaging,or break up the cargo into smaller parts,or fabricate and
fan a dispute where none exists-with the sole intention of fulfilling the exemption criteria under 46 USC
30706(a)(4)(“ seizure under legal process”),or(a)(5)(“ inherent defect,quality,or vice of the
goods;”),(a)(6)“insufficiency of package”(a)(7)“act or omission of the shipper or owner of the goods or their
agent’’.As the documentary evidence reveals in this instance,these steps are repetitive across clients,across
contracts,in that this is the modus operandejised by defendants;it is a regular way of doing business for
them.Thus,even though the consumer pays for packaging,insurance etc,there is negligible packaging,and these
defendants intentionally perform acts that would fraudulently enable them to invoke the exception clauses on
insurance,or under 46 USC 30709(a)(4)-(a)(7).When cargo is damaged,the small time front end operators like
RM4U and small time carrier like SHIPCO can simply destroy the BOL,and shrug off liabilities,as
RM4U,SHIPCO did in this instance.The customer opinions and reviews can be manipulated against these
third party operators like SHIPCO and RM4U,thereby avoiding bad publicity for prime contractor like CRL.
3

a) The Harter Act applies to voyages between US ports and voyages between US and
foreign ports;COGSA(p.68-77)only applies to the latter.
b) The Harter Act applies from delivery at load port by the shipper to delivery to the
consignee at discharge port;COGSA(p.68-77)applies only between loading and
unloading,'tackle to tackle’.
c) The Harter Act contains no package limitation;COGSA(P.68-77)limits the carrier’s
liability to $500 per package.
d) The Harter Act has no statute of limitation;COGSA(P.68-77)requires claims to be
brought within one year.
e) Importantly,the shipper and carrier may stipulate that COGSA(P.68-77)or any other
law governs the period during which the cargo is in the custody of the
carrier,including prior to loading and post discharge.so long as they do not select a
foreign law or forum that would reduce the responsibility of the carrier under
COGSA.
COGSA(P.68-77)was the U.S.enactment of the International Convention Regarding
Bills of Lading,or "Hague Rules”,an international maritime convention for unification of
certain laws relating to bills of lading signed in Brussels in 19256.The Hague Rules have been
adopted by most of the major maritime nations of the world. Wimar Sesuros YReaseguros
S.A.v.M/VSkv Reefer,515 U.S.528.53fr7P95)1.COGSA(P.68-77)establishes a comprehensive
framework of the rights and liabilities by which shippers,vessels and carriers are governed for
cargo damage.Id.at 536.
The Congress was concerned that the Hague Rules did not offer shippers enough
protection against damage to cargo by shipowners.lt amended the Hague Rules by increasing
the amount that shipowners would have to pay cargo owners for damage in transit
from GBP 100 per package to US$500 per package or,for goods not shipped in packages,per
customary freight unit.This "package limitation" is of particular importance in this
instance .Shipowners argued to the courts that the pallets and containers were “packages” and
that they were entitled to limit their liability to $500 per pallet/container.Here, in this instance,
the “packages” were approx.500 boxes, or one container size 10 x 10 x 40 feet(12 m)long or
two Twenty Foot Equivalent Units(TEU)] .Carriers would label the container as ONE
package,and apply the $500 rule,even though the contents of a container may be valued at
over $500,000(See the forged COSCO BOL(p.l49) shows the container as one Unit).
This imbalance,in the relative bargaining power of cargo owners,and the superior
bargaining power of shipowners,and the imbalance between $500 per container and the true
value of a shipment led to countless lawsuits over the "package limitation" problem.The rest
of the world, including NZ, amended the Hague Rules in 1968 with the Yisby Amendments
which eliminated the "per package" limitation and substituted a limitation per kilogram,and
litigation concerning limitations on liability became virtually non-existent outside the
US.Although New Zealand ratified Hague-Visby Amendments into a law(Maritime Transport
Act of 1994,AppF.p.364-368),US Congress failed to pass the Visby Amendments to the
Hague Rules and the issue of insufficient liability remained in US.

6Former sections 46 U.S.C.§1300 et seq.were recodified in the Note of 46 U.S.C.§30701 in 2006).It was found
in Title 46 Appendix of the United States Code.starting at Section 1301 ,but has been moved to a note in
46 United States Code 30701.[Pub.L. 109-304,Sec 6(c ),Oct 6,2006,120 State 1516].
4

Household goods,along with automobiles,yachts,cranes,and heavy construction
equipment are not shipped in packages.Therefore,US courts decided that whatever freight unit
the shipowner applied would be the freight unit for determining the limitation on liability.In
this case, it was 500 “boxes”.Again,seeing an opportunity to limit their liability for cargo
damage,shipowners began freighting all cargo by unit,rather than by units of weight or
measurement.Consequently,an automobile which might have a volume of 400 cubic
feet(15 m3),or 4 measurement tons,which would previously entitle the carrier to a limitation of
$2000,was now freighted as "one automobile" thereby reducing the shipowner's liability from
$2000 per automobile to $500.Here, defendants forged a COSCO bill showing the container as
a single unit. Such excesses lead to the passage of Carriage Of Goods By Sea Act.
Under COGSA,a carrier who concludes multimodal transport contracts;i.e.,contract
involving transport by more than one mode of carriage,is characterized as the Multimodal
Transport Operator.In this case,the multimodal transport operator was CRL.The liability of the
multimodal transport operator like CRL covers the period from the time he takes the goods in
his charge to the time of their delivery .The multimodal transport operator is responsible for all
damages in the multimodal transport and for the work of all persons and for the acts and
omissions of his servants or agents,from the moment when the goods are accepted for
transport to the moment when the goods are delivered to the recipient of the goods,including
for the damage caused by the loss or damage of the goods as well as the delay in the delivery
of the goods while the goods were in the possession of the operator.This means that the
operator responds,to the principle of liability under the guilty plea and if he/ she wishes to be
released from liability.he/she must prove that he/she is not guilty of loss,damage,or delay
in the delivery of the goods and that the evidence must be compelling,reliable and in
writing.If the goods have not been delivered within 90 consecutive days following the date of
delivery,the claimant may treat the goods as lost and the carrier becomes liable for the damage
incurred because of a delay,unless the reason for the delay is any fact that excludes the
carrier’s liability for the loss of or damage to the thing.This unity system makes multimodal
transport operator responsible person for the entire transport,separately from the
contracts of transport branches.Here, CRL refused to deliver the goods for 90 days unless I
agreed to waive liabilities7, and thus became liable for the value of the entire shipment on Nov
13,2015.the whole charade of storage charges was simply an unlawful scheme, to evade
liability under COGSA/Harter Acts.
When the goods are damaged, there is no package limit from Harter Act (p.67-68), but
COGSA(P.68-77)permits an ocean carrier to limit its liability to $500 per package,which can
substantially reduce a carrier’s liability exposure to pennies on the dollar.Because of
this.ocean carriers extend the reach of COGSA(P.68-77)to their subcontractors and
beyond the scope of its usual “tackle to tackle” application.“Tackle to tackle” is a term of
art which means,by its own force,COGSA(P.68-77)applies once the goods pass over the rail of
the receiving vessel at loadport and cease once the goods pass over the rail of the discharging
vessel at disport.When the shipment carries discrete itemsjike boxes,the shipper recovers
full value because the $500 limitation was applied to each box.

7 CRL repeatedly made offers to deliver, provided I paid them more than I had contracted for, waived all liabilities, and agreed to a
roadside delivery, and removed negative reviews that I had given to them.Under duress, I had even agreed to waive liabilities, but
I could not agree to roadside delivery, and payment of charges that were not payable.CRL cooked up storage charges to qualify for
exception clause.

5

The NVOCC’s BOL usually binds the carrier, and the shipper to COGSA in such cases,
and it is assumed that SHIPCO’s original BOL, used by CRL to remove the goods thru
customs, carried this “agreement” on its face.See sample BOL from SHIPCO(p. 143-148).
But,there is an exception of the application of the COGSA(P.68-77)package limit.By its
own terms,COGSA(P.68-77)excludes from the definition of “goods” that cargo which is stated
in the BOL to be carried on deck and is so carried.46 U.S.C.§30701,Note §l(c)(Both_the
Hague and Hague-Visbv Rules exclude on-deck cargo from their respective definitions of
goodsLTherefore, if the cargo is stored on deck - as it seemed to be here-and suffers extensive
damage, COGSA may be binding on the parties, but the COGSA limitation of $500 per unit, is
not binding.
Where COGSA(P.68-77)does not apply by the force of its own terms,the parties to a
BOL may contractually extend COGSA(P.68-77)beyond its normal parameters,including to
on-deck cargo.See Institute ofLondon Underwriters v. Sea-Land Serv.,Inc.,881 F.2d 761,76364(9th Cir. 1989Kapplying COGSA(P.68-77)to yacht carried on deck that was dropped during
discharge because the BOL statedfCOGSA]shall apply to goods whether carried on or under
deck. ” Id.at 764.)and Pannell v. US Lines.263 F.2d 497(2d Cir.l959)(the BOL provided in
relevant part that in respect ofgoods carried on deck,the carrier shall have the benefit of the
COGSA /‘notwithstanding Section l(c)thereof’.Id.at 498);see also SNC S.L.B.v.M/V Newark
BavJll F.3d 243,245(2d Cir. 1997) and Cohate Palmolive Co.v.S/SDart Canada, 724 F.2d
313.315f2d Cir.l983).cert.denied.466 U.S.963(1984)3Ao such agreement to extend $500 limit
to on-deck cargo is evidenced here.
40-foot containers are likened to the hold of a vessel and are typically deemed to be
stowed below deck.However.shippers may request to stow their cargo on deck when ocean
carriers charge less freight for on-deck stowage.Because on-deck cargo may face
increased exposure to weather and sea-spray during ocean transit,ocean carriers will
often clause their bills of lading to reflect the greater risk for physical damage during
ocean transit.The ocean carriers typically will insert language such as “stowed on deck at
shipper’s risk” on the BOL and then the risk is imputed to the shipper.HoweverJn absence of
such explicit agreement,the risk is imputed to the carrier8-as it was imputable here.
8 Ocean carriers have,with limited success,attempted to argue this additional language on the face side of the
BOL is sufficient to incorporate by reference the benefit of the COGS A(p.77-87), $500 per package
limitation of liability.For example.inrZ)e/tamax Freight System v.M/V Aristotelis, 1998 WL 111 0395,1999
A.M.C.l 789(C. D. Cal. 1998) La shipment of airplane parts were damaged during ocean transit due to adverse
weather.The BOL contained the phrase “stowed on deck at shipper’s risk and expense” in the routing
instructions box and,on the back side,the BOL stated.“Thel U.S. Carriage of Goods by Sea Tcf|COGSA(P .7786)U.S.$500 limitation as set forth in § 1304(5)of said Act shall apply to all goods shipped to and from the
United States hereunder.(emphasis added).” In this case,the court reasoned that the language on the face
side,in conjunction, with the language on the back side of the BOL was sufficient to provide notice of the
COGSA(P.77-86)package limit and found the $500 per package limitation to be valid and enforceable.(p.7787),
By comparison,in Saudi Pearl Ins.Co.Ltd.v.M. V.Aditva Khanti,1997 U.S.Dist.LEXIS
76637S.D.N. Y. 1997),72 of 1,455 wooden telephone poles were stowed on deck and fell overboard during
ocean transit.The face side of the BOL stated: “LOADED ON DECK AT SHIPPER’S RISK” whereas the
clause paramount simply incorporated COGSA(P.77-86)into the contract of carriage without further
elaboration on its application or whether COGSA(P.77-86)would apply to on-deck cargo.In Saudi Pearl,the
court found that the ocean carrier could not rely on the COGSA(P.77-86)package limit(p.77-87),
In Columbia Machine. Inc, v. DFDS TransportfUS). Inc. .2008 A. M.C. 640(0 D. Cal. 2007),five pieces of a
shipment of concrete-block-making equipment suffered damaged while stowed on deck.The BOL was claused
6

Freight forwarders have found unlawful ways to evade such liabilities.They employ
various schemes and artifices to defraud their consumers.The consumers are generally
ignorant of laws,are gullible inexperts,lack time and resources to litigate,and their
consignment of household goods will always include goods that are of very high emotional
value - like picture albums,grandmothers carpet,mother’s wedding dress,or furniture piece
that belonged to greatgrandfather.The irreplaceability of such items makes the consumers
much more vulnerable to blackmail.The consignment is used as hostage to extort
ransom(additional amounts of money,and waiver of liabilitiesjfrom the consumers.
B. Foreign State Immunities Act(FSIA)
The US adopted FSIA by 28 USC 1602 et seq in 1976(App D,97-98).Under the restrictive
theory of sovereign immunity,a state or state instrumentality is immune from the jurisdiction
of the courts of another state,except with respect to claims arising out of activities of the kind
that may be carried on by private persons.Specifically,28 U.S.C.1605 now provides that a
foreign state shall not be immune from the jurisdiction of courts of the US or of the states in
any case in which:
faV2Vcommercial activity carried on in the US or an act performed in the US in
connection with a commercial activity elsewhere.or an act in connection with a
commercial activity of a foreign state elsewhere that causes a direct effect in the
US;here,CRL’s actions in NZ caused RM4U to convert my goods in US,and TALBOT
to cancel my insurance,and SHIPCO to destroy the BOL.
taY3 VproDertv taken in violation of international law is at issue;here hague visby
rules were violated by NZ government,and all my property,and payments made,were
taken, converted, liquidated by NZ government in violation of international laws.
(a)(5)-money damages are sought against a foreign state for personal injury or death,or
damage to or loss of propertv,occurring in the US and caused by the tortious act or
on the front side with “LOADED ON DECK AT CARGO OWNERS RISK,” but the back side contained the
following additional language concerning cargo stowage:
(2)Goods,whether or not packed in Containers,may be carried on deck or under deck ...without notice
to the Merchant. All such Goods,whether carried on deck or under deck... shall be deemed to be within
the definition ofgoods for the purposes of the Hague Rules and shall be carried subject to those Rules.
(3)Notwithstanding Clause 15 (2),in the case of Goods which are stated on the face hereof as being
carried on deck and which are so carried the Hague Rules shall not apply and the Carrier shall be
under no liability whatsoever for loss,damage or delay,howsoever arising.
The BOL further contained a U.S.clause paramount:
(1) If Carriage includes carriage to,from or through a port in the United States ofAmerica,this BOL
shall be subject to the United States Carriage of Goods by Sea Act 1936(U.S.COGSA),the terms of
which are incorporated herein and shall be paramount throughout Carriage by sea and the entire time
that the Goods are in the actual custody of the Carrier or his Sub-Contractor...
(3)IfU. S. COGSA applies the liability of the Carrier and/or the Vessel shall not exceed US$500
per package or customary freight unit(in accordance with Section 1304(5) thereof, unless the value of
the Goods has been declared on the face hereof, in which case Clause 7(4) shall apply.
In evaluating the BOL’s language as a whole,the court concluded that it related to the Hague Rules,which was
sufficient to invoke COGSA.However,with respect to whether the carrier was entitled to the COGSA(P.7786)package limit,the court concluded that the U.S.clause paramount merely incorporated the “terms” of
COGS A,which included COGS A’s normal exclusion of on-deck cargo from its package limit,and there was
no intent to apply any limitation of liability to on-deck cargo. As a result,the court found the carrier could not
rely on the COGSAtP 77-86tlimit.therebv exposing the carrier to full liability.(COGSA(P.77-86)at
p.77-87),
7

omission of that foreign state; .here,CRL’s actions,and the Judgments from DOJ,in NZ
caused RM4U to convert my goods in US,TALBOT to cancel my insurance,SHIPCO to
destroy the BOL.I was wrongfully declared bankrupt by NZ government, and the funds
used to pay forfreight & bankruptcy $45,000, were from federally insured US
Banks.Constitutional rights constitute property rights, and deprivations of these rights
constitute deprivation of property .These actions give rise to legitimate claims against the
New Zealand government under the original jurisdiction of the Supreme Court.
C. Schemes & Artifices Used By Operators To Evade Liabilities
COGSA(p.68-77),Harter(67-68).,Maritime Transport Act(p.364-368) of 1994,Hague
Rules,Hague Visby Rules and others hold the end carrier/operator,in this case
CRL,responsible for the purposes of liability,and the carrier is prohibited from limiting this
liability .Records provide evidence that members of this freight forwarding industry have
organized themselves into conspiratorial groups-association-in-fact enterprise-with the
intention of evading their liabilities.CRL teams with other RICO enterprise members to devise
various schemes and artifices to violate shipping laws:
1. NZ based companies like CRL hire small time agents like RM4U to act as their front end
marketing agents inUS. Carriers like CRL, SHIPCO intentionally underquote to undercut
competition. When the cargo arrives at destination, CRL blames the US agent for any
lapses,and will collect more from the consumer by threatening liquidation of goods,and
bankruptcy(p.223-240),using its NZ citizenship as a shield to evade antitrust laws (p.61-66)
that a US branch officer would forced it to comply with9.Here, CRL is also
the(covert)prime contractor in this arrangement.
2. CRL and its agent,RM4U then retain other unethical small time businesses-packers like
XO Movers,Ocean carriers like SHIPCO,and small time Insurance Agencies like
TALBOT.Most of these are not headquartered in US,and consumers in US have rarely';
heard of these companies.This cloak of agent-anonymity protects unclean hands of larger
players like CRL from being exposed,makes litigation difficult for defrauded consumers.
3. The enterprise members charge for packing,disassembly,but intentionally pack the
shipment a)unprofessionally b)during the night,d)fail to take photographs of expensive
items for insurance purposes d)force the client to provide packaging material.These are
intentional “lapses” later used to deny liability claims.The enterprise members pre-plan to
ensure that the insurance claim can never be successfully raised10.
4. Containers are stored on-deck, at higher risk of damage, without shipper’s permission.The
damages to cargo are consequential, proximately caused by deceptive acts11.
9 CONROY REMOVALS have significant business from US markets,but they have international offices only
in countries like Australia where antitrust laws are not in effect.
10 The packers force the consumer to buy unlabelled boxes and request help from the consumer in packing-so
that in case of damage,they can claim that these unlabelled boxes were packed by the owner. Although the
insurance contract states that for any item over $2,500,photographs and separate listings are needed,these
requirements are never fulfilled.Thus if an expensive item is damaged,no claim can be made for these
expensive pieces of cargo even though consumer may have been charged for insurance coverage.
11 Here,I had not stipulated to have the cargo stored on-deck.Hence,the application of COGSA(P.77-86)limits
on claims involving on-deck cargo — which generally depends on the specific wording of the ocean carrier s
BOL - is not applicable.There was no special clause that would preclude imputation of additional damages
due to increased risk faced under such circumstances.Further,it has been noted that other victims of this
8

5. Agents and subcontractors are not pre-paid,as is the law,because the cabal always
intends to charge the customer twice — at the origin,and again at the destination.See
another complaint p.273-365.If there was no pre-arrangement, the subagents would
seek prepayments.
6. When the goods arrive at the destination(eg in New Zealand),CRL introduces itself as
RM4U’s local agent and offers to deliver goods in return for port charges only (approx
$700) and by such false speech, secures consumer’s signatures on the Customs Forms.lt
has no intention to deliver for $700.
7. The signatures are used to generate a Delivery order from Customs. It takes possession of
the goods,and begins to (extort) more than the contractual amount.
8. After taking control of the goods,subagents claim that they have no contract with principal
agent,that it has not been pre-paid by RM4U,and demand that consumer pay more than the
contracted amount12.This conduct is repetitive, consistent across most consumers.
9. By the time this cargo,subjected to extensive damage by on-deck storage,arrives at
destination,the enterprise members have already schemed to a)extort more than the
contractual amounts b)qualify the carriers,and the insurance agency to exceptions under 46
USC 30706(5),(6)or(7)13 that limit their liabilities.Hence,they present their extortionist
demands,for more money,and demand a waiver of liabilities under threats of
liquidation,fines,penalties and bankruptcy.
10. The multimodal agent schemes to conceal facts, laws from the consumer and refuses to
raise claims against the ocean carrier - which they are required to do by law - because they
have a quid pro quo arrangement with each other.They scheme to destroy the original
BOL( # 2114544 in this case -See arrival notification p.154),forge fraudulent BOL( See
fraudulent BOL from COSCO(p.l49)),which shows the container as a Unit,thus unlawfully
limiting to $500 -$1,200 liability of the carrier in violation of all three shipping laws.
1 l.The enterprise members then prepare a new inventory list(AppF,p.150-163),and arbitrarily
characterise the damaged goods as having been packed by the owner,being inadequately
and/or unprofessionally packed,and therefore not deserving of insurance coverage,also
invoking the exception clauses.The members may scheme to cancel the insurance
coverage,also deprive the consumer of their rights under COGSA, p.68-77,Harter
Act(p.67-68),or any other applicable acts14. These outcomes occur at destination,but the
enterprise have also had extensive damage to their cargo,which indicates that on-deck storage is a modus
operande used by these parties,without their knowledge or their agreement.In other words.these defendants
were always aware that on deck storage would result in damage to the cargo,but intentionally subjected
the cargo of their consumers to such risk-without the knowledge or agreement of the consumers,simply
to underquote and undermine competition.
12 Shipping laws allow the agent to raise an invoice before undertaking the work,and ask that the
_______principal
prepay thcm.but such discretion is never exercised by the destination agent because
overseas
it intends to hold the shipment as hostage to extract more money from the shipper.
13(5)inherent defect,quality,or vice of the goods;
(6)insufficiency of package;
(7)act or omission of the shipper or owner of the goods or their agent;
14 Here,there were 403 boxes on the inventory list made by CRL,of total replacement value of
$350,000.Therefore,CRL would be answerable to me for the entire loss for the FIRST CONSIGNMENT.Of
this,TALBOT would have to pay $115,000 and the multimodal transport operator CRL the
rest.Internally,CRL could raise claims against SHIPCO-for $350,000 under HARTER ACT(p.67-68),and for
$201,500 under COGSA(p.68-77)(If discovery reveals that the cargo was stored on deck,COGSA(p.689

schemes were set in motion at the origin itself.The fraud is pre-planned and is repeated
with each consumer.
12.To fraudulently qualify for the exception clause,destination agent imputes arbitrarily
charges to the consumer(even if no payment is owed)and demand payment,and waiver of
liability,and unilateral change in terms and conditions of the contract.If the consumer pays,
more arbitrary charges are levied because the intention is to forced a waiver of liabilities.
13.Documents are forged to show that the consumer had entered into a different contract,for
domestic movement of goods within the country of destination.Here,CRL forged a quote
that purportedly it had sent to me in June 2015 while I was still in US(transcript of Dec 8,
2016)..Based on such a forged quote,it claimed that it had no contract with RM4U15,and
the law of COGA(not COGSA) (p.68-77,not Harter(67-68),not Maritime Transport
Act(p.364-368),not Hague Rules,not Hague Visby Rules)applied.
14. Thru such fraud upon the court,the members of the enterprise seek monetary Judgments
against the innocent victimised consumer in NZ,also seeking unreasonable attorney fee and
costs.The defendants have the consumer declared bankrupt,forcing liquidation of goods by
official assignee,thus satisfying the 46 USC 30706(4)clause “seizure under legal
process”.Doing so serves three purposes.A)They fraudulently extinguish their liability
claims against them,B)thru bankruptcy proceedings they acquire additional funds to which
they were not entitled,C)they create fear in the hearts of potential consumers - the
prospective relocating consumer will readily submit to their blackmail,extortion attempts
under threat and liquidation and bankruptcy .D)The real value of consignment,and extent of
damages can never be established.Thus,legitimate legal proceedings are used to achieve
illegitimate goals.
15.The NZ government encourages this flourishing racketeering trade, and actively
participates in the deprivation of rights of US citizens, in violation of US laws,
international laws, and its own shipping laws.Because of such governmental participation,
it has become necessary to hold the government accountable in US.This is the basis for
planned invocation of the FSIA in this instance.
16.Defendants RM4U and CRL run websites where their clients can offer reviews.Defendants
bribe consumers with discounts for good reviews. When a negative review is written,it is
immediately removed from their website.When a negative review is lodged anywhere on
intemet(other than their own site and they cannot delete the review),CRL’s employees
threaten,intimidate,harass the reviewer, which lures more unsuspecting consumers to them.
17. At each stage,the consumer is intentionally provided false information that the overseas
agent,RM4U,and not the multimodal transport operator like CRL,is liable for damages, and
that if their cargo is not insured,they cannot raise a claim against the multimodal transport
agent.The enterprise members intentionally mislead innocent consumers to unknowingly
77)limits of $500 per box do not apply).Under Maritime Transport Act(p.364-368),SHIPCO,or CRL would
be liable for significantly much more.Of this amount,TALBOT Insurance would have to pay $115,000.For the
SECOND and THIRD CONSIGNMENTS,RM4U would be liable for over $30,000 and $1,800.
15 CRL later alleged that it had no contract with RM4U.If CRL are to be believed,it must be presumed that the
FIRST CONSIGNMENT carrying at least 403 items were erroneously delivered to CRL by
SHIPCO.Thus,this admission of CRL - that it was not the multimodal transporter makes SHIPCO the
multimodal transporter under HARTER ACT(p.66-68),or under COGSA,and the liability accrued against
SHIPCO would be actual,ie $350,000.Under COGSA(P.68-77)the liability would be $201,500 if the cargo
was not stored on deck.Under Maritime Transport Act(p.364-368),it would be significantly higher(See
Article 4(5)(e).
10

waive their claims for damages.This modus operande is tragically supported by the NZ
govemment.Transcripts of Court hearings will establish such governmental stance.
These schemes and artifices constitute quid pro quo arrangements and violations of
RICO with governmental involvement.The suit is being filed on my behalf,and on behalf of
others that are similarly defrauded.In the last 3+ years,over 120 victims have been identified
involving one or more of these very defendants acting in collusion with these or other such
operators that use exactly the same modus operande.There is extensive communications from
other victims which will be provided later.Mohd Rana filed a lawsuit with FMC against
RM4U(see pg 273-367).Here, RM4U had teamed up with different group.The FMC
decision,at p.335-33 8,does not acknowledge the role played by other members of the
enterprise,and does not provide adequate deterrants,and RM4U has begun operating and
colluding with these defendants simply by using a different, unregistered trading name.Better
Business Bureau, a governmental non profit website in US, accepts sponsorship money, to
promote RM4U, thereby unwittingly misleading and luring the consumers like Mohd Rana to
RM4U.Government has a duty to prevent/arrest such ongoing criminal conduct,punish
offenders, and ensure adequately effective deterrents.
D. Allegations

All communication between parties was thru internet using my gmail accounts,the initial
contracts were negotiated using US phone lines/US mail and were paid from federally insured
US banks16.The complaint,filed under the Private Attorney General Doctrine,alleges that the
defendants engaged in one or more of the following racketeering acts(as highlighted and
emphasized)as these terms are defined in 1961:
(1)(A) “any act or threat involving extortion which is chargeable under State law and
punishable by imprisonment for more than one year;
(B)any act which is indictable under any of the following provisions of 18 USC
659(relating to theft from interstate shipmenfjif the act indictable under section 659 is
felonious,section 1341(relating to mail fraud),section 1343(relating to wire
fraud),section 1344(relating to financial institution fraud),section 1503(relating to
obstruction of justice), section 1512(relating to tampering with a witness, victim,or an
informant),section 1513(relating to retaliatine against a witness,victim,or an
informant),section 1951 (relating to interference with commerce, robbery, or
extortion),section 1952(relating to racketeerins), section 1956(relating to the
launderins of monetary instruments),section 1957(relating to engaging in monetary
transactions in property derived from specified unlawful activity),sections 2314 and
section 2315 (relating to interstate transportation of stolen property),
(2)“State” means any State of the United States,the District of Columbia,the
Commonwealth ofPuerto Rico,any territory or possession of the United States, any
political subdivision,or any department,agency,or instrumentality thereof;
(3)“person” includes any individual or entity capable of holding a legal or beneficial
interest in property;
(4) “enterprise” includes any individual,partnership,corporation,association,or other
legal entity,and any union or group of individuals associated in fact although not a
legal entity;

16 Thus fulfilling the requirements for Bank, mail and wire fraud.

11

(5) “pattern ofracketeering activity” requires at least two acts of racketeering
activitv,one of which occurred after the effective date of this chapter and the last of
which occurred within ten years (excluding any period of imprisonment) after the
commission of a prior act of racketeering activity;
It is alleged that the defendants have received income derived,directly or indirectly,from a
pattern of racketeering activity and through collection of an unlawful debt in which
such person has participated as a principal within the meaning of section 2,title
18.United States Code.These funds,this income or proceeds from such income have been fully
or partially used or invested,directly or indirectly,in establishment and operation of the
alleged enterprise which is engaged in,or the activities of which affect,interstate or foreign
commerce.[18 USC 1962(a)]
It is alleged that defendants thru a pattern of racketeering activity or through collection
of an unlawful debt have acquired and maintain,directly or indirectly,an interest in or control
of the alleged enterprise which is engaged in,or the activities of which affect,interstate or
foreign commerce.[See 18 USC 1962(b)].
It is alleged that defendants are associated with the alleged enterprise that is engaged
in,or the activities of which affect,interstate or foreign commerce.These defendants conduct or
participate,directly or indirectly,in the conduct of such enterprise’s affairs through a pattern
of racketeering activity and/or collection of unlawful debt. [See 18 USC 1962(c )].
Defendants,each one of them have conspired to violate provisions of
subsection(a),(b),and(c)of section 1962.[See 18 USC 1962(d)] .These constitute crimes against
US,creating alleged causes of actions.
The complaint,filed in 2017,did not allege 1963 violations, but for the Court’s
insistence that the RICO complaint be limited to 50 pages.Specificity requirements under 1963
would make the complaint run over a hundred pages.I was forced to exclude 1963 claims
under duress by Judge Ishii’s order to limit complaint to 50 pages.Since 2017, when the
complaint was first filed, defendants have engaged in additional activities that fall under under
section 1963 .Economic claims against New Zealand Government are also valid under
FSIA(AppD.97-98)
E. Background Facts

Over 100 exhibits were submitted to the Appellate and the District Court but were
stricken.Not all are provided herein but are shown as (***), and will be provided later.
Contract With RM4U
In May 2015,I,Madhu Sameer,and RM4U entered into a Contract for the multimodal,
door to door transport of my household goods from Fresno,California,to Christchurch,New
Zealand.(Doc 1,78-80’ App F,118-120).I made an initial payments of $1,290 thru check # 1575
drawn on Bank of America(APP F,p.l24)17. RM4U agreed to get full replacement value
insurance of $350,000($10,000 free)18 at the cost of under $l,000.The approximate insurance
quote was approximately as identified in(App H,p.283)
171 also paid $5040 to CRL, and spent $1,800 on carrying the cargo as checked baggage.Proof of these
payments will be provided at a later date as my bank accounts have been cancelled due to bankruptcy.

18 However,it later unilaterally reduced my cover to mere $115,000 without my consent/APP G,206208).Insurance was to be full coverage,and FRANKIN repeatedly admitted that even after the dispute broke
out .“ifthere is damage to the individual items,you will be fully coveretf’femail) fall items being packed by the
movers” (cmaiX)^ or under their supervision”‘full coverage will cover all the item packed by the movers,which
is most ofyour items” (zmdiiXfthe client has full coverage insurance at the moment”)]
12

Packing by XO Movers

In June 2015,my goods were packed during the night by XO Movers.I was forced into
buying most packaging material at my own expense despite having paid $2,100 for
packing[APP C,20].Their packing list showed only 334 of 500+ items/boxes loaded into the
container[FIRST CONSIGNMENT](AppF,p. 125-131 ).They dumped some cargo into the
container without packing(see pictures,p.l69-175), and negligently left behind over 40
items.RM4U subsequently had 24 of 40 goods picked up in the next few days(PackingList2App F,132-133)(“SECOND CONSIGNMENT)and promised to ship the SECOND
CONSIGNMENT at their own expense[(APP F, 122-123)“...we will take care of the shipment
upto the destination portfor free” fwe will be happy to cover the ocean costs”].They again left
behind 14 items,of which 8 items were of emotional value.FRANKLIN agreed to reimburse
me if I carried these 8 items as checked baggage(App F,121: “And I offer to give you to take
the boxes on theplane”)(heYG&ftQT “THIRD CONSIGMENT”).I spent USDS 1,800 to bring the
THIRD CONSIGNMENT into New Zealand.I paid to have the remaining items trashed.
Contractually,! was required to pay the outstanding amount when the goods were
scheduled for shipping ie when a combined Bill Of Lading was created.I left LA for NZ on
June 29,2015 and waited to receive an updated schedule and BOL,but never received
this.Defendants intentionally concealed BOL #2114544 ,and identity of SHIPCO/Ocean
Carrier and only the FIRST CONSIGNMENT was scheduled thru NVOCC SHIPCO19. Conroy Removals & Arrival of FIRST CONSIGNMENT in NZ.Conversion of SECOND
CONSIGNMENT.and REFUSAL To Pay For THIRD CONSIGNMENT

On Aug 13,2015,in Christchurch,New Zealand,I received an “Arrival Notification”
email from MONICA MCKINLY(hereafter “MCKINLY”),from CONROY REMOVALS
LTDIhereafter “CRL”)in relation to the cargo arriving under the BOL # 2114544.The
email[App,142]stated : “under our contractual agreement with Right Move.... ”]. The storage
charges were listed as $129 per month.
Prior to Aug 13,2015,1 had never heard of CRL or MCKINLEY.I relied on their
representation that they were under contractual agreement with RM4U and came to know that
RM4U had sent only the FIRST CONSIGNMENT.I informed MCKINLEY of my dispute
with RM4U in great detail over several phone calls,and thru several emails(there are over 100
emails),explaining that if I paid this entire amount,or even if I paid more than the contracted
amounts that were being sought,RM4U would have no incentive to ship the remaining cargo.I
repeatedly offered to put NZ$10,000 in trust fund20 until RM4U complied with the terms of
the contract[App F,***].The offer was repeatedly rejected.CRL refused to provide me with a
copy of BOL # 2114544,and also refused to let me retain a neutral third party agent for
delivery, demanding I pay an additional $10,000 to them.
RM4U/ MICHELLE FRANKLIN(hereafter FRANKLIN) refused to freight the SECOND
CONSIGNMENT,and refused to reimburse me for bringing the THIRD CONSIGNMENT to
19 A non-vessel operating common carrier(NVOCC)is an entity that is licensed in the U.S.to issue ocean bills
of lading but does not operate any shipsfas the name implies.)Instead,the NVOCC purchases space from
vessel operating common carriers(VOCC)and acts as the shipper of record to the VOCC,who enters into a
contract of carriage with the NVOCC.
20 The NZ$10,000 offered by me was significantly greater than the contracted amount of $8,600,of which $1,200 had
already been paid,and an additional $1,800 was reimbursable as expense for bringing the goods as check in baggage.Of
$8,600,only $5600 remained payable at the time,and NZD$ 10,000 being offered was significantly more than
USD$5600.
13

NZ(AppF,p.l39).In fact she began demanding USD $1 l,927(p.l41)to release the FIRST
CONSIGNMENT in addition to CRL’s demands for additional sums of money.
Attempted Mediation By Federal Marine Commission & Repeated breach of Mediation
Agreements
In Aug2015,Federal Marine Commission(FMC)mediated an agreement that CRL as an
% jfc % jfc sfc
).It was agreed that
agent of RM4U,would charge only$677 to deliver my goods(APP F,
RM4U,being the prime contractor,would either prepay,or reimburse CRL for their work After
repeated clarifications that this would be the only amount that would be paid until the
shipment in US was scheduled for transportation, I signed the customs release forms on
Aug 18,2015(App F,****)that enabled RM4U/CRL to obtain a Delivery order from NZ
Customs.Using BOL # 2114544(See Arrival Notification p.l54)prepared by SHIPCO21 CRL
took control of the cargo. At the time,CRL had an option to deliver as per the mediation
agreement,or it could charge a nominal amount for its effort in generating the delivery
order,give me the Delivery order,and I could retain another agent.Instead,FIONA
CONROY(hereafter FIONA)quickly moved the goods to CRL warehouse,and began
demanding NZD$10,00022(App F,****).Helpless and vulnerable,I offered to pay $10,000 into
a trust fund until resolution of dispute.My offer was rejected[App F,p.369].I repeatedly asked
her to resign,and allow me to retain another agent,She refused to do so.[p.369].23
Under duress and false threats of fines,damage and liquidation,FMC mediator brokered yet
)relying on assurances
another agreement and I paid an additional NZDS4041.27(App F,
that this was the only amount I would have to pay(App, * * * * )until resolution.I was falsely
): “~if
informed that this amount would be credited to the balance I owed RM4U[App F,
she paid us directly..that would come off her total account that was due to the right
Move..”]. An email was sent to all,including FMC Mediator Phillip LEE,signing off on this
)and no one
agreement.My email clearly stated ”the rest will be resolved later” {App F,
objected to this understanding/agreement.
After I had paid NZD $4041.27,RM4U refused to credit the amount towards payment of
my outstanding with RM4U[See Complaint to Disputes Tribunal,APP F,***: “RM4Uhas
refused to credit that amount to my account even though their agents have taken this money
from me”]. Thus the defendants intended to make me pay twice,as the cartel has been doing
with several other victims. Their participation in mediation was a scam to force me into paying
more,and more and more.
After this payment of $4041.27 was made.CRL and RM4U immediately demanded an
additional $990,and FMC Mediator Mr Lee again convinced me to pay this $99024.
Immediately,they demanded $1100 more unilaterally increasing the storage charges from 129
per month (See AppF,p.l54) to $560 per month (AppF,p. 182),also demanding waiver of all
liabilities.Mediation broke down when they held my goods as ransom refusing to
deliver,attempting to extort more and more and more,refusing to schedule the SECOND
21 Information secured from the Customs,New Zealand has revealed that she used the original BOL,to have the
Delivery Order prepared. A sample BOL from SHIPCO is provided(p. 143-148)
22 $10000 was not the amount I owed.The contract had been for $8,600 USD,of which I had paid $1,200
USD,and was eligible for a reimbursement claim of $1,800.Therefore I only owed $5600 as per my
contractual arrangement with RM4U.
23 Several emails offering to deposits 10,000 in a trust fund were refused and will be provided later.
24 In addition to $1,200,1 paid $5040 to CRL, and spent $1,800 on bringing 3 boxes as
checked baggage from Fresno-Christchurch.
14

CONSIGNMENT,refusing to credit this amount against my payment obligations to RM4U.lt
wouldn’t have mattered what I paid - they were after waiver of liabilities.
In late August2015,the cargo was devanned— and goods transferred from COSCO’s 40ft
container to CRL’s 2x20ft containers. 143 of the 403 pieces(33%)of cargo were found to be
damaged. Although CRL had no way of knowing which piece was packed by me and which
was paced by XO Movers, CRL created a new inventory list wherein it arbitrarily
characterized most of the damaged pieces as having been Packed by Owner(PBO)(See
App, 150-163)26.The pictures of damages cargo,and the inventory list were circulated to other
)and RM4U,TALBOT immediately cancelled my
defendants over my protests(App,F,
insurance(AppF,p.l77).FIONA, of CRL,refused to allow the insurance assessor to assess
valuation and damage to the shipment even when I offered to pay out of pocket for such
assessment (AppF,p.l64-168).
During the devanning process, 16 pieces,the Christmas ornaments etc,were found to be
worthy of testing by Ministry Of Primary Industries(MPI)(App F,***).Hence,I requested that
the 387 of the 403 goods cleared by MPI be delivered immediately.On July 21, 2015, FIONA
refused to deliver the rest of the goods, stating” until full clearance received,all goods must
remain on 5zYe”(AppH,p.369).On Sept2,2015(Wednesday),FIONA confirmed that MPI had
not cleared the goods and” they would be back to inspect on Friday” ie on
Sept4,2015(AppF,* * *).Due to the intervening weekend, the earliest delivery was on
Sept7,2015.FIONA instead, chose to schedule delivery for Sept21,2015,but began demanding
an additional $1100 in penalties that Ministry of Primary Industries,(MPI)and COSCO(APP
)had purportedly imposed on me. When contacted,both agencies denied imposing any
F,
).On Sept 21,2015,FIONA again cancelled delivery for my
fines and penalties(APP F,
failure to pay these imaginary fines and penalties .Finally, she admitted that no fines had been
imposed.But she now demanded that I pay $1,100 in storage charges27(App F,182)28.
CRL then began demanding that pay these outrageous amounts,waive all liabilities,agree to
accept roadside delivery of cargo and remove all negative reviews that I had given for their
services.(App F,p.l83-194).These demands were repeatedly made between 2015 - 2019 (only
a few letters and emails are provided here) and constituted breach of contract,attempted
extortion,and blackmail as such is defined under Hobbs Act.
I sent at least 30 emails asking FIONA to deliver goods pending resolution of money-only
judgment-CRL refused, demanding that I waive liabilities, remove reviews, and agree to
roadside delivery(App F,p.l83-194).It was clear that the only goal was to secure a waiver of

25 Devanning is a process mandated under the Ministry of Primary Affairs for biosecurity clearance. All
cargo is offloaded and then re-loaded into the container at a licensed cargo facility to check if there are any
organic materials like snails,spiders etc in the container.CRL undertook the devanning process at their facility.
26 CRL had no way of knowing what was packed by XO Movers and what had been packed by me as I had
attempted to help the packers.
27 The storage charges had been arbitrarily increased and backdated from $129 per month(p.l42)to $560 per
month,(p. 182)Even if storage charges were valid(they were not),and even if CRL had offered to deliver on
Aug31,2015(which she had not),storage from Aug31,2015 - Sept21,2015 could not have been$l,100 even at
$560 per month.To justify $ 1100,FIONA retrospectively adjusted the accrual date to Aug21,2015.
28 CRL had used $5040 paid earlier to pay off the Ocean carriers and now needed $1100 to attempt a roadside
delivery, therefore it was disguising the $1,100, sometimes as purported fines, and other times, as storage
fee.No storage fee had accrued on my account.lt was CRL/FIONA who has repeatedly, consistently refused to
deliver my goods despite repeated requests.
15

liabilities and the monetary demands were arbitrary .The legal process was being used to
accomplish goals that were illegal.
TALBOTs Misrepresentations To California Department of Insurance

In Dec 2015,1 approached TALBOT to file an insurance claim and was informed that
the insurance had been cancelled(App F,p. 177)1 then agreed to pay out-of-pocket for
assessment of damages,and valuation of goods (p.164-168) but FIONA refused to allow
assessment. In or around Feb 2016,1 submitted a complaint to the California Dept Of
Insurance(hereafter CDI)against TALBOT.TALBOT falsely informed CDI that I was
refusing to comply with an FMC Judgment against me.No Judgment has been entered
against me by FMC.CDI relied on these false representations by TALBOT,and suspended
their investigation.
Destruction of the Original BOL & Forgery of a New BOL

Under Right To Information Act,NZ Customs has confirmed,that Customs Delivery
Order in 2015 for this shipment was prepared against the BOL # 2114544 issued by
SHIPCO.Later,this BOL was concealed/destroyed by the cabal, a new backdated BOL from
COSCO(p.l49) was made.A sample of SHIPCO’s generic BOL is at App F,143-148. The
containers were left unsealed by the roadside in Christchurch,NZ for over 3 months(App
F,p. 176),before they were moved)to an undisclosed location on the North Island,New Zealand
without my knowledge.I was denied access to them,in violation of shipping and maritime.
laws.They were again moved back from North Island to Christchurch in 2019.For 6
years,CRL,its employees,and all roadside loiterers had unrestricted access to the contents of
these containers until the bankruptcy court took control in 2019(see p.223-240).Police in
Fresno and NZ Police took no action.
Legal Proceedings In NZ

Defendants forged new BOL((p.l49)and concealed/destroyed the original BOL #
2114544 from SHIPCO(See App F, 143-148), to convinced me that NZ Courts had
jurisdiction on the claims.In late Aug2015,I filed a complaint with the Disputes Tribunal of
].Two informal
NewZealand seeking release of the FIRST CONSIGNMENT(App F,
hearings were held in the Disputes Tribunal,on 11/11/2015 and 12/8/2016.There was no
trial,just an informal mediation session during which FIONA and RODNEY
WHITE(hereafter WHITE),an employee of CRL,provided false information/testimony to the
Referee.In Nov 2015 FIONA had stated that she was an agent of RM4U and had no contract
with me,and had first heard of me in August 2015 when CRL sent an Arrival Notice to
me(Transcript of Disputes Tribunal will be provided)).In Dec 2016 CEL employees
contradicted this and testified that CRL had no contract with RM4U and had been retained
by me in June 2015 while I was in US.They had purportedly sent me a quote directly in June
2015,and that constituted a direct contract with me effective June 2015(App
F,***,transcripts). No evidence of how this quote was “sent”, was ever produced.
The Referee dismissed my complaint,and granted CRL’s cross complaint against me
on Dec 8,2016, holding CRL was authorized to dissociate themselves from the chain at will
and enter into a new contract with me, and had, in fact, entered into a new contract with me
for local delivery, based on the quote that had been sent to me in July 2015 while I was in
US.I was ordered to pay NDZ$9000+ in addition to USD$7000 that I had already paid
defendants(AppF,204-212).
16

On appeal,defendants provided forged documents and made several false
representations of facts and laws before the High Court,which affirmed the lower court’s
decision in August 2017.1 was sanctioned an additional NZD$9,800(Total NZDS 19,000 +
$7000 that I had already paid).
In July2017,I filed the current lawsuit in Eastern District Court in Califomia.Defendants
retaliated by filing Notice Of Bankruptcy in NewZealand against me(App F,223-240)under
Insolvency Act to fraudulently qualify for the exception clauses.I filed,inter alia,a request for
Permission to Set Aside the Notice of Bankruptcy/and or Permission to File a Cross Claim
against CRL.under protest of jurisdiction.! also filed Private Prosecution complaint for
perjury,forgery etc in District Court of NZ as per the law.High Court refused to cede
jurisdiction,and on 3/21/2018, it granted CRL’s Notice of Bankruptcy(App F,223-240)and
ordered me to pay an additional $16,000(plus $19,000 + $7000)in defendant’s costs.The
matter was stayed until 2019 for appeal but the Appellate Court refused to take the Appeal in
2019, even though right to review is a constitutionally protected right in US and in NZ.
In May 2018,the NZ District Court denied my request for permission to commence
Private Prosecution29 against CRL for forgery,perjury,and for Obtaining My Goods under
Deception[App F,213-222)- these are valid criminal offenses under the Crimes Act,in NZ.
Since then, all my household goods have been liquidated.Although the Official Assignee is
authorized to prosecute defendants for fraud in bankruptcy proceedings, the general bias
against US emigrants prevents her from prosecuting in the furtherance of justice.
\ •
F. Legal Proceedings In US
General

Until late 2017,defendants had concealed the Ocean Carrier’s identity and name.In
late2017,WHITE accidentally disclosed NVOCC SHIPCO’s involvement but all have till
date concealed documents related to my shipment,and involvement of other parties.In 2017 I
became aware that the US Courts had jurisdiction over the matter.
On July6,2017,I filed this current complaint in Eastern District Court against seven
defendants-RM4U,FRANKLIN,CORTINO,CRL,FIONA,XO,and TALBOT(Docl)with a fee
waiver request(IFP).Judge Ishii denied my fee waiver without holding a hearing on
9/14/2017(Doc5)(Doc 2-IFP),hence the Court prevented me from using USM285 for
service.Subsequent related consequential errors are errors invited by the court.
I mailed summons and complaints to all defendants with waiver of service
forms.None of them responded.On July 19,2017,1 filed the FAC,amending the complaint to
include MONICA MCKINLY,a CRL employee(Doc4).RM4U et al,Talbot Insurance
intentionally provided wrong address and repeatedly evaded service,which lack of proper
service was listed by Trial Court as one of the reason for dismissal of my complaint.
On Oct23 and Oct25,2017,I filed a request to file a second amended complaint in
order to join SHIPCO to the suit(Docs 1 l,13)after the carrier’s identity was inadvertently
disclosed by RODNEY WHITE of CRL during court proceedings.The Motion to Amend
complaint was granted without a hearing.No other changes were made to the complaint.
On 12/4/2017,1 filed a Request for Permission to file the Third Amended
Complaint(Doc30)but on 4/19/2018 Court took matter under submission,and dismissed the

29 As per NZ laws,Courts permission to commence private prosecution is needed - just like in
California,Courts permission is needed to commence conspiracy suit under CCP 1710.14.
17

complaint against SHIPCO/ TALBOT,ordered me to re-serve,and file the 50 page Third
Amended Complaintwithout holding a hearing.
On 5/21/2018,1 filed an amended complaint(Doc92).
On 5/22/2018,the Court dismissed my complaint with prejudice(Doc94),and issued a
Judgment against metDoc95Jwithout a hearing.
On 5/22/2018,1 filed a Motion for Reconsideration(Doc96).
On 5/23/2018,Court denied my Motion for Reconsideration(T)oc97Lwithout holding a
hearing.
On 6/3/2018,1 filed a Notice of Appeal with the Ninth Circuit(Doc98).The Appellate
Court affirmed and a Motion for Rehearing/En Bloc was denied on 3/23/2020.
Service To Defendants

On 10/10/2017,Trial Court issued and mailed summons to me in NewZealand(Doc6,7,8).
On 11/30/2017,personal service to CRL,FIONA,and MCKINLEY was completed (Doc21;
Doc25-POS).
On 11/8/2017,personal service on XO was completed(Doc33).
In Nov2017,SHIPCO was appropriately served by a process server(see POS),but fraudulently
claimed defective service(Doc38-Doc40),hence on 1/29/2018,the Court made an order
quashing service to SHIPCO(Doc65).The Proof ofService, filed late by the process
server,clearly states that defendant had been appropriately served.SHIPCO were re-served
waiver of service documents,and this time they signed the waiver on 1/8/2018,and then filed a
Motion to Dismiss per Rule 12.
TALBOT maliciously,repeatedly evaded service and each time gave me a wrong address
for service(Doc56,68,72;Doc66;68,Doc94,95).
In November 2017,summons and complaint with waiver of service forms were mailed to
each of the RM4U defendants.These defendants were also served thru email.No waiver was
received back.Around 11/21/2017,my process server made three attempts to personally serve
these defendants,but defendants evaded service(See Doc32,33,37).
;
Another set of documents seeking waiver of service was mailed in Jan2018,and no response
was received(Doc47,48,49).
On 4/10/2018,1 requested the Court to allow substituted service(Doc86).The Court
took the matter under submission and denied my request without a hearing.I again attempted
to serve them thru a process server.Defendants,each one of them,evaded service.USM285
and Marshalls could not be used to serve RM4U,and TALBOT,as the Court had denied fee
waiver .Nevertheless,service was completed on all others,and therefore dismissal on this
basis,against all defendants,was unwarranted.
WHY MUST THE REVIEW BE GRANTED

The whole chain of events constitutes pre-meditated fraud and racketeering. RM4U was
required to provide me with a consolidated BOL before the consignment shipped from US so I
could pay her as per the contract. They failed to do so, and conspired to ship only part of the
goods. In NZ, they conspired to extort monies that were not owed, and waiver of liability for
extensive damage. When that could only be provided under duress, they refused to have the
damages assessed and secured a fraudulent bankruptcy order against me, claiming that they
had entered into a contract with me separate to my contract with RM4U. This dissociation of
the concluding multimodal agent, and any means of reducing or evading liability is prohibited
by international shipping laws but these defendants routinely flount maritime laws. Despite
being a signatory to the Hague-Visby Laws, the NZ government aids and abets them in
18

violation of these laws, fabricates facts, misinterprets laws, to conceal and protect local
businesses from liability. Petition must be granted to maintain the integrity of US and
International Shipping laws, to force NZ government to follow its own laws, and treat US
citizens in NZ to equal protection of these laws.
A. Federal Questions & National Interest
1. Which Law ?

The tension between the goal of resolving disputes quickly and finally and that of assuring
that the resolutions will be perceived as "fair" or "just" must be resolved in favor of the
latter.The recognition of the power of the Court to resolve disputes is tempered by the fear of
arbitrary exercise of that power for pro se litigants.The Constitution states in Article III that
"The judicial Power shall extend to all Cases, in Law and Equity,arising under this
Constitution,the Laws of the US,and Treaties made.or which shall be made, under their
Authority." There is no dispute that NZ Courts wilfully usurped jurisdiction of US Courts.
This claim involves federal laws(COGSA,Harter Act,Insurance Laws), enforcement of
international treaties like Hague Rules,and enforcement of Constitutional guarantees.The
issues raised in the complaint create federal causes of action,federal questions.Several
important national interests and general public interests would be served by granting this
Petition.TGrable & Sons Metal ProductsJnc.v.Darue EngineerinslfSee section titled National
Interests). The dismissal of my complaint by District Court over minor technical issues,without
realizing and considering the merits of the case undermines and underestimates the extensive
reach,and devastating effects of such illegal enterprise.The merits of the case cannot be
subservient to technicalities of FRPC 8(a).
The complaint alleges an ongoing conspiracy, and therefore, the additional acts of
deception and fraud from 2017 onwards - whether this fraud and deception was against me, or
against others-cannot be excluded from Review as the Appellate Opinion stated(“We do not
consider matters not specifically and distinctly raised and argued in the opening brief, or.
arguments and allesations raised for the first time on appeal.See Padgettv. Wright, 587 F.3d
983, 985 n.2(9th Cir.2009) ”(App B).To do so, would undermine the ongoing nature of the
claims, and act in favor of allowing criminals to continue engaging in criminal behaviors.
Further, the argument related to void Judgments and deprivation of civil rights can be raised at
any time, in any Court.Ninth Circuit’s decision to limit the review to issues raised before
District Court, or Appellate Court(App B)is flawed on this basis also.
Lastly, the Judgments from New Zealand Courts(p.204-281)are without due process,in
clear absence of jurisdiction, by Judicial officers appointed by NZ government. Any invocation
of jurisdiction under the FSIA(App D,p.97-98)would necessarily involve analysis of the
exceptions to FSIA arising under federal law after the complaint was filed, and cannot be
excluded on review or Certiorari.
2. The Need To Enforce US Jurisdiction & US Laws in COGSA/HARTER Claims

Section 13,of COGSA(P.68-77)[See 46 USC 13701],states:
This Act shall apply to all contracts for carriage ofgoods by sea to or from ports of
the US in foreign trade....The term foreign trade’ means the transportation of goods
between the ports of the US and ports offoreign countries.... ” .
HARTER Act (p.67-68) states:
It shall be the duty of the owner or owners,masters,or agents ofany vessel
transporting merchandise or property from or between ports of the US and
19

foreign ports to issue to shippers of any lawful merchandise a BOL,or shipping
document,stating,among other things,the marks necessary for
identification,number of packages,or quantity,. . .and such document shall be
prima facie evidence of the receipt of the merchandise therein described.
The rules of statutory construction applied to the above make the subject matter
jurisdiction of US and rights of shippers abundantly clear.Therefore, the Judgments secured by
the defendants in NZ are void as a matter of law.The intentional destruction of the BOL #
2114544.after the BOL was used to clear the zoods thru NZ Customs, clearly points to
spoliation of evidence, and the conspiratorial nature of the alleged fraud establishes that
defendants were involved in a well thought out conspiracy whose goal was to evade
liabilities.These were legal proceedings initiated to achieve illegal and unlawful goals.
The judgment ofNZ courts without jurisdiction over the subject matter of the action is
null and void in its entirety .The "voidness doctrine" serves to check excesses of judicial
power.To say a judgment is void is to deny its existence and a fortiori to deny that the
underlying dispute has been resolved.Here, the demands of finality are subservient to the
original excess of jurisdiction.In an ideal world, once a dispute is settled, the fact of settlement
may be deemed to be more important than the identity of the court that acted.However, this
idealism unreasonably denies the political, corrupt, and extrajudicial factors that Judicial
officers often bring to the courtroom.COGSA and HARTER were created to counter exactly
such political, corrupt, and extrajudicial considerations that Courts of other countries may use
to deprive American citizens of their rights.Failure to consider jurisdictional issues also
deprives the contracting parties of their rights to negotiate contracts to their benefit and thus
allows governments to unnecessarily interfere with commerce and commercial activities.
3. Need To Prevent,Punish & Deter International Crime
Need To Deter Anticompetitive Practices

RM4U/CRL provided the lowest quote for these services.None of the defendants was willing
to comply with their original quote.Subsequent investigations with other victims establishes a
pattern where consumers had been similarly underquoted.And contrary to the argument that
only RM4U is responsible for such anticompetitive practices,this is clearly a joint
collaboration - CRL underquotes to RM4U for its services, TALBOT underquotes for
insurance coverage,and SHIPCO underquotes freight charges and stores the containers ondeck without seeking shipper’s permission in violation of 15 USC 13a(p.64).When their fraud
is exposed, they all engage in threats, intimidation and blackmail to extort amounts in excess
of the contracted amounts,and waiver of liabilities.See Sherman Act and Clayton Act.[p.6166].There is a strong need to deter such crime.
Need To Deter Carriers From Destroying Bills Of Lading

Harter Act(p.67-68)states:
It shall be the duty of the owner or owners,masters,or agents of any vessel transporting
merchandise or property from or between ports of the US andforeign ports to issue to
shippers of any lawful merchandise a BOL.or shipping document,stating,among other
things,the marks necessary for identification,number ofpackages,or quantity,stating
whether it be carrier's or shipper's weight,and apparent order or condition of such
merchandise or property delivered to and received by the owner,master, or agent of the
20

vessel for transportation,and such document shall be prima facie evidence of the receipt
of the merchandise therein described. [ 46 USC 193]
For a violation of any of the provisions ofsections 190 to 196 of this Appendix the
agent,owner,or master of the vessel guilty of such violation,and who refuses to issue on
demand the BOL herein provided for,shall be liable to a fine not exceeding $2,000[46
USC 194]
On demand of a shipper,the carrier shall issue a BOL or shipping document.
(b) Contents.—The BOL or shipping document shall include a statement of—
(1)the marks necessary to identify the goods;
(2) the number ofpackages,or the quantity or weight, and whether it is carrier’s or
shipper’s weight;and
(3) the apparent condition of the goods.
(c) Prima Facie Evidence ofReceipt.—
A BOL or shipping document issued under this section is prima facie evidence of receipt
of the goods described. [46 USC 30703]
A carrier may not insert in a BOL or shipping document a provision avoiding its
liability for loss or damase arisine from negligence or fault in
loadinS'Stowaue.custodv.care.or proper deliverv.Any such provision is void. [46
U.S.Code §30704]
These operators routinely, recklessly violate these provisions that are enacted to prevent just
the crimes that defendants conspired to commit.Copy of BOL is intentionally not provided to
the consumer so that if the goods are damaged,the BOL can be destroyed (p.142-148),and a
new one forged(p.l49) to show the container as a single unit.This defiance in the face of
specific laws,represents wilful violation of COGSA(P.68-77)and Harter Acts(p.67-68).This
can only be achieved by complicity between various actors.
Need To Deter Fraud & Fraud Upon The Court

The rulings against me from NZ Courts are not legitimate,lawful.Jurisdiction of US courts
aside, legitimacy demanded application of Maritime Transport Act (p.364-368)instead of
COGA as the basis of Judgment against me(p.204-238).Deceit, forgery of documents,perjury,
false affidavits under oath containing false information, inconstant statements that are made
ad-hoc,to achieve immediate goals,and conspiracy to deprive me of my day in the court has
given rise to such judgment.The evidentiary documents of misleading judicial officers and
defeating justice - exhibits and transcripts of proceedings in NZ-are too voluminous to present
at this stage,but will be provided with the Brief,when the Petition is granted.These are prime
examples of “egregious conduct” justifying relief and deterrence.
The pattern of behavior(see Schemes & ArtificesYmchide attempts by the cartel to use
the courts of NZ as an instrument to assist in their fraud,harming the integrity of the judicial
process.\In re Lev ander 180 F.3d.at 77791,so that the judicial machinery cannot perform in
the usual manner its impartial task of adjudging cases that are presented for
adjudication.\Applins v.State Farm Mut.Auto.Ins. Co,340
F.3d. 769.7SI(9th.Cir.2003)/resulting in_grave miscarriage of justice!Be£serly,524 U.S.at
21

47.118 S. Ct. 1862,cited in Appling supra1 .Whenever attorneys commit fraud during a
proceeding in the court,they are engaged in "fraud upon the court".\n\Bulloch v. US, 763 F.2d
1115J121(10th Cir.1985) Lthe court stated "Fraud upon the court is fraud which is directed to
the judicial machinery itselfand is notfraud between the parties or fraudulent
documents,false statements or perjury....It is where the court or a member is corrupted or
influenced or influence is attempted or where the judge has not performed his judicial function .
— thus where the impartialfunctions of the court have been directly corrupted."
7th Circuit defines it as “that species offraud which does,or attempts to,defile the court
itself, or is a fraud perpetrated by officers of the court so that the judicial machinery can not
perform in the usual manner its impartial task ofadjudging cases that are presentedfor
adjudication."\Kenner V.C.I.R..387 F.3d 689(1968) :7 Moore's Federal Practice,2d ed.,p.512,H
60.23].
The 7th Circuit further stated "a decision produced by fraud upon the court is not in essence a
decision at all,and never becomes final." Other Circuits hold that an appeal from an order
based on fraud upon the Court is a question of constitutional law,and questions the Court’s
lack of ability to perform its functions in an disclosure of facts,therefore this kind of conduct
must be discouraged in the strongest possible wav.\ Cox v.Burke, 706 So. 2d 43,47(Fla. 5th
DCA 1998)].T\\q allegations are not frivolous at all.Also seefTirouda v State,No.2004-CP00379-CQA.MissiswDi.2005)]."fraud upon the court" vitiates the entire proceeding.\The
People of the State of Illinois v.Fred E.Sterling, 357 111. 354; 192 N.E.229(1934):In re Village of
Willowbrook, 3 7 Ill.ApD.2d 393(1962) ("It is axiomatic thatfraud vitiates everything."
):Dunham v.Dunham.57 Ill.ADD.475(1894).afTirmed 162111.589(1896).The duty to correct
fraud is not subservient to technical issues raised by judge Ishii.
Need to Deter Insurance Fraud

Consumers pay for insurance coverage to compensate or their losses in situations like
these.Here,the insurance company is in cahoots with the agents.lt is well aware thru repeated
claims filed by the consumers,that RM4U and CRL are engaged in unethical practices,and
charge the consumers for packaging without providing adequate packaging material and
professional packaging.I specifically,repeatedly asked TALBOT(and CRL)to blacklist RM4U
and refuse to do business with them.Yet both these companies ignored these allegations,failed
to investigate and continued doing business with each other.As a consequence,at least 120
more victims suffered similar injuries. When this lawsuit was filed,RM4U simply changed its
name and began trading under a different name,and continued working with TALBOT,CRL
and SHIPCO.
Records show that other victims of this enterprise have been treated
similarly(AppG.p.241-338, AppF,p.l95-198).TALBOT has refused to honor their claims with
the same excuse - that the packaging was insufficient, CRL informs them that the multimodal
chain is not liable for damages, thus wilfully misleading its consumers knowing well that
nothing can limit the liability of the multimodal carrier[4b USC 30704].
CRL enjoys a priviledged,unlawful immunity from suits due to the NZ governments
discriminatory policies that conceal and protect local business offenders regardless of their
crimes.Hence,it may be said that New Zealand Government explicitly sponsors these illegal
acts, and is thus an accessory to the alleged crime.

22

Need To Prevent,Punish & Deter Conspiracy,Racketeering,Quid Pro Quo arrangements
The conspiracy initially began with the purpose of blackmailing me and extorting money in
excess of contracted amounts.Later it morphed into a conspiracy to conceal the offenses of the
members of the alleged enterprise,and to protect them from liability by defeating justice,and
unlawfully inflicting bankruptcy on me(p.223-240)[See Tirouda v State,No.2004-CP-00379COA.MissisiDDi.2005) 1. Still later,the High Court and District Court Judges conspired to
conceal the judicial misconduct of the Disputes Tribunal Referee,protecting her from liability
for making of void judgment against me.
See section titled Allegations.The complaint alleges that these defendants,and
others,have organized themselves into an enterprisers the term is defined in 1962 et
seq(AppD,p.87-93).They routinely engage in such misconduct and I have not been the only
victim.Hobbs Act of 1946[18 U.S.C.§ 1951(2006)]prohibits extortion affecting interstate
commerce. Supreme Court considered whether proof of the existence of a quid pro quo
agreement is required for conviction under the Hobbs Act in\McCormick v. US, 500
U.S.257(1991)1. In the end,the existence of quid pro quo corruption depends on a factual
finding about the state of mind of the partiesCMorlev 2016 ),and therefore,trials are
necessary.Importantly,the Supreme Court has recognized a compelling interest in
preventing quid pro quo comiption(McCutcheon,\34 S.Ct.1434,1441 Buckley,424 U.S.at
27).On this basis alone,the Petition must be granted.
Discretionary power of the Court to dismiss a complaint is to be exercised in furtherance of
justice and in public goodfPeople v.Beasley.5 Cal.Avp.3d 617,637[85 Cal.Rptr.501l.There is
no justice here,nor public good.Instead,the court has rewarded crime and criminal conduct,and
enabled continuity of RICO violations.There is an ongoing threat of continuity, as defendants’
routinely engage in such acts.Demands for waiver of liability are modus operande,as are the
use of legal procedures to achieve illegitimate and illegal outcomes.Defendants’ illegitimate
acts have been camouflaged under the cloak of Bankruptcy Orders against me(p.223240) .District Court was mandated,and this Court has a duty to rectify such extensive,conscious
shocking crime,and fraud upon the Court,especially because I am not the only victim of their
alleged crimes.
Despite being a signatory of the Hague Visby Rules,New Zealand government suport
local companies engaged in violation of international laws, and commission of international
crime.lt is reluctant to cede jurisdiction to COGSA(P.68-77)Harter Acts p.67-68)for fear the
acts of these NZ companies and their operators would be exposed and held liable.This Court
must take a leaf from the Tirouda Court,which stated the following:
We decline to interpret our rules so as to render the defrauded court impotent to rectify
this situation. We find Mr. Tirouda’s actions to be an example of “egregious conduct”
justifying relief under the savings clause ofRule 60(b). See Wilson,873 F.2d at 872....in
addition to perpetrating fraud upon the courts of Miss iss wpi, Mr. Tirouda attempted to
use the courts ofMississippi as an instrument to assist in his fraudJustice cannot be
promoted and a just determination of the action cannot be accomplished in allowing
Mr.Tirouda to retain a Mississippi birth certificate to which he is not entitled....[Also
see Tirouda v State.No.2004-CP-00379-CQA.Missisippi,2005)1
Petition must be granted to establish precedents that affect international commerce thru
violations of RICO lawsTAtocfc v Burke.913 F2d.l390(9th Cir, 1990). Also see section titled
Other Courts Have Ruled Differently On RICO Violations.
23

4. Conflict Of Laws
a. Refusal To Schedule Proper Hearings Represents An Invited Error
Judge Ishii,as a matter of fact,never holds a hearing on any matter.To schedule a pro se
litigants complaint in a Courtroom that is notorious for never holding a proper hearing was an
error invited by the Court.The Court failed in its affirmative duty to provide information to a
self-represented litigantACastro v. US(2003)124 U.S. 7ff(5].The fee waiver issues could have
been better resolved if the Judge had questioned me,or sought additional information. State
Superior & Appellate Courts have previously and since granted fee waivers and Judge Ishii
himself granted a fee waiver for appeal.In hindsight,Judge Ishii was on the verge of retirement
at the time,and retired very soon after.See section titled Judge Ishii Was Unqualified. Contrary
to the Appellate finding : “Despite the district court’s warning and instruction,Sameer’s third
amended complaint was vague,confusing,andfailed to allege clearly the bases for her claims”
there is no evidence that the failure to comply with Courts rulings and instructions was
intentional,or malicious.The failure could have been avoided if Judge Ishii had shown a basis
courtesy that the pro se litigants deserve,and that the Supreme Court has repeatedly advised to treat RICO complaints, and pro se complaints liberally and to provide adequate information
to the pro se litigant,given the merits of the case.His refusal to provide this basic courtesy to
the pro se litigant appearing for the first time in a federal court,represents clear abuse of
discretion.
When a Judicial officer knows a crime is being committed, and public is being defrauded,
he or she is mandated to prevent the crime,and act in the furtherance of justice[18 USC 4,42
USC1986] .Judge Ishii’s duty to protect public from crimes was greater and more important
than the discretionary power to “manage his docket” thru dismissals using vague, intangible
adjectives like prolix, argumentative, and prolific to define a pro se complaint.He failed.
“The trial court's discretion is not absolute: ‘The discretion intended...is not a
capricious or arbitrary discretion, but an impartial discretion,guided and controlled in
its exercise by fixed legal principles.lt is not a mental discretion,to be exercised ex
gratia,but a legal discretion, to be exercised in conformity with the spirit of the law and
in a manner to subserve and not to impede or defeat the ends of substantial
justice. "(Bailey v.Taaffe(1866)29 Cal.422,424.).
“Although a defendant is entitled to the weight of the policy underlying the dismissal
statute, which seeks to prevent unreasonable delays in litigation, the policy is less powerful
than that which seeks to dispose of litigation on the merits rather than on procedural
grounds.(Denhem and Sup Ct citing Daley v. County of Butte,227 Cal.App.2d,380,390[7l[38
Cal.Rptr. 6931.) f2Cal. 3d 567\ Judge Ishii exercised his discretion to impede and defeat the
ends of substantive and procedural justice.He could have prevented a bankruptcy and
fraudulent sale of goods(p.223-240).Now, there is no other legal recourse except this certiorari
as all photographs of children, heirlooms, keepsakes etc of immense emotional value cannot
be returned or replaced.The least this Court can do, is to bring these culprits to justice,
b. Managing Court Docket
The notion that Court dockets must be managed at the expense of justice is simply flawed and
leads to further overcrowding of dockets as people deprived of their day in the court seek
vindication of their rights,and because the government is committed to ensure that people have
meaningful opportunities to be heard.This basis also fails.
24

c. Notice Requirements Cannot Be Enforced When Defendants Are Evading Service

Under the adversarial system, notice is a fundamental right of the defendants,and a
timely service of summons and complaint is a constitutionally imposed duty on the
Plaintiff.However,malicious attempts by a defendant to evade service of summons and
complaint are attempts to engage in extrinsic fraud, to unlawfully rob the Plaintiff of her
constitutional right to Petition,to defeat justice.Therefore,the rights of the party acting in
furtherance of justice - the Plaintiff attempting to serve the summons-must be held of greater
importance.To not do so would be akin to rewarding misconduct that seeks to violate the
law.The Court lacks the authority to promote extrinsic fraud and any such act is therefore in
excess of its jurisdiction. Here,RM4U et al,and TALBOT were all aware that they were being
served.Each had repeated been sent the summons and complaint thru email,and by mail.They
were also repeatedly, personally served by process servers.They provided fictitious addresses
[18 USC 1342], and/or refused to accept summons and complaint. Such acts cannot entitle the
defendants to dismissal of the complaint as they are incompatible with the philosophy of law
and justice,and in conflict with the judicial responsibility to prevent crime.Dismissal, in the
face of such conduct only serves to promote illegal behaviors and is a violation of Judicial
Canon 3B - the attorneys should have been sanctioned.Also see section titled Substituted
Service,under Petition Must Be Granted To Maintain Consistency ofDecision Making(Splits).
d. Conflict Between Laws Of US,NZ,and International Treaties,and conflict with the
Judgments from New Zealand

NZ is signatory to Hague-Visby treaty .reflected in Maritime Transport Act(p.364-368) of
1994.COGSA,HARTER Act, and Maritime Transport Act are similar in their goals.The only
difference would be the liability amount, and jurisdiction of the Courts. Whereas
COGSA(P.68-77)and Harter(67-68) provide jurisdiction to US Courts,Maritime Transport Act
(p.364-368)provides NZ Courts with the jurisdiction over disputes. Therefore determining
which law is applicable,is important. New Zealand Courts have rejected these laws that govern
international shipments,and have instead imposed Carriage of Goods Act(COGA)(p.249270),rather than any of these three acts, thus holding that multimodal operator can dissociate
from the chain at will for the purpose of evading liability .This should not be accepted and
allowed by the international community.Such dissociation leaves the consumer vulnerable,and
defeats the purpose of the unitary responsibility of the multimodal transport
operator.Certiorari must be granted to address these questions, and reverse such precedents,
e. Conflict with FRCP 8
The Court dismissed my complaint on the basis of FRCP 8(a)(2)which states that a pleading
that states a claim for relief must contain: “a short and plain statement of the claim showing
that the pleader is entitled to relief. ” If construed liberally, the complaint is a short and plain
statement of the claim,and it competently shows the relief sought.lt provides adequate details
of crimes,the nature of relief sought and how and why that relief must be granted.11“give[s]the
defendant fair notice of what the ..claim is and the grounds upon which it rests.Rule 8(f)'s
mandate that "allpleadings shall be so construed as to do substantial justice30.” The dismissal
30 “the right of a potential litigant to the use ofjudicial procedures is constitutionally protected by the prohibitions against state
deprivation of property without due process of law. ’’[Supra at 9211...The trial court may not make findings as to the existence of
facts based on a weiehine of competing declarations. Whether or not the evidence is in conflict, if the petitioner has presented a
sufficient pleading and has presented evidence showing that a prima facie case will be established at trial, the trial court must grant
the petition...Subjecting the allegations to a fact adjudication screen would violate the right to a jury trial" Hak Fu Hung v. Warren
Wam(1992)8 Cal.ApD.4'h 908.at Pi7.Cal.Const.,art.I.§16.

25

did not do substantial justice.The Court cannot ignore this-statutory interpretation necessitates
that statutes should be construed "so as to avoid rendering superfluous" any statutory
language: "A statute should be construed so that effect is given to all its provisions,so that no
part will be inoperative or superfluous,void or insignificant....11 \Hibbs v. Winn,542
U.S.88.101(2004)(quoted in Corley v. US.556 U.S.303.314(2009) /.Resistance to treating
statutory words as mere surplusage "should be heightened when the words describe an
element of a criminal offense fiRatzlaf v. US.510 U.S. 135.140-41 (T 994)1 .There is no reason to
assume that this does not apply to the Federal Rules of the Civil Procedures.
FRCP 9 versus FRCP 8
FRCP necessitates that fraud be plead with specificity and detail.Therefore,in complaints
where fraud is being alleged,FRCP 9 is fundamentally incompatible with FRCP 8 and the
complaint maintains this balance.
Merits Of The Case versus FRCP 8
Good public-policy dictates that cases be adjudicated on their merits. [See Hotel Last
Frontier v.Frontier Prop. 79 Nev. 150.155-56.380 P.2d.293.295(1963)]and disposition on the
merits is favored over judicial efficiency. \Bahl v Bank ofAmerica(200l)l Judge Ishiii’s
foreclosure disregards the merits& violates constitutional rights. \Braxton v.Municipal
CourtfS.F.No.22896.SuvremeCourtOfCalifornia.October 4J973].This is especially true when
extensive fraud is involved - technical loopholes must not be allowed in the face of ffaud.The
question before the Court is whether the merits of any case are subservient to the mandates of
FRCP8(a)(2).
Californian Rules express preference for resolution on the merits.gygw if resolution
requires excusing inadvertence by a pro se litigant that would otherwise result in a
dismissal.Plaintiff need not demonstrate a probability of prevailing on merits. [Favila v. Fatten
Muchin Rosenman LLP, (2010) 188 Cal.App.4th 189, Cal.App. 4th at pp.208—210J
“A court’s inherent authority to dismiss an action should only be exercised”in
extreme situations,such as when the conduct was clear and deliberate,where no lesser
alternatives would remedy the situation ..(Del Junco v.Hufnagel(2007)150 Cal.App.4th
789.799:see also Lyons v. Wickhorst(1986)42CaUd 911,915.There is no evidence that the
conduct was clear, deliberate, and there was no other altemative.A district court may only
impose the sanction of dismissal on finding of 'willfulness, fault,or bad faith." Leon,464F.3d at
958.None of these was evidenced.
Fraud Upon The Court versus FRCP 8
We decline to interpret our rules so as to render the defrauded court impotent to rectify
this situation. We find Mr. Tirouda’s actions to be an example of egregious conduct
justifying relief under the savings clause ofRule 60(b).See Wilson,873 F.2d at 872....in
addition to perpetratingfraud upon the courts ofMississippi,Mr.Tirouda attempted to
use the courts ofMississippi as an instrument to assist in his fraud. Justice cannot be
promoted and a just determination of the action cannot be accomplished in allowing
Mr.Tirouda to retain a Mississippi birth certificate to which he is not entitled....[Also
see Tirouda v State.No.2004-CP-00379-COA.MissiswDi.2005)lFQvinions on Fraud
Upon The Courtp.1101
An appeal from an order based on fraud upon the Court is a question of constitutional
law,and questions the Court’s lack of ability to perform its functions in an disclosure of
facts,therefore this kind of conduct must be discouraged in the strongest possible
26

wav.\Cox v.Burke, 706 So.2d 43,47(Fla.5th DCA 1998)CTherefore,the Court cannot use
FRCP 8 to dismiss my complaint - the need to deter fraud to establish the victim’s
innocence, is a greater of the two requirements.
Pro Se Litigants v FRCP 8
A pro se complaint’s allegations must be read expansively,” Haines v.Kerner 404
U.S.519.520-21.S.Ct.594,596.60 L.Ed.2d 652(1972) “Court has a special obligation to
construe pro se litigant’s pleadings liberally” Polling v.Hovnanian Enterprises,99 F.Supp.2d
502.506-07(D.N.J.2000).“We hold pro se pleadings to a less stringent standard than pleadings
drafted by attorneys and construe them liberally.” Tannenbaum v. US. 148 F.3d 1262,1263(11th
Cir. 1998).Californian Rules express preference for resolution of every case on the merits,even
if resolution requires excusing inadvertence by a pro se litigant that would otherwise result in
a dismissal.The Judicial Counsel justifies this position based on the idea that" Judges are
charged with ascertaining the truth,not just playing referee...A lawsuit is not a game,where
the party with the cleverest lawyer prevails regardless of the merits.” (John Greacen, Greacen
Associates LLC, "Ethical Issues for Judges in Handling Cases with Self-Represented
Litigants31" Conley establishes that only the barest of pro se complaints be dismissed for non­
specificity even when alleging fraud,especially considering Rule 15's mandate that district
courts liberally grant leave for amended,curative pleadings32.rConley v.Gibson :: 355
U.S.41(1957)l“77ie pleading is not a game ofskill in which one misstep by counsel may be
decisive to the outcome, and accept the principle that the purpose ofpleading is to facilitate a
proper decision on the merits” Cf.Maty v.Grasselli Chemical Co.,303 U.S.197,cited in Conley
v Gibs on. supra]. Also see Opinions on Rights OfPro Se Litigants (p.105)
Constitutional Guarantees v FRCP 8
Courts across US hold that suits may not be dismissed without a trial .[.“Counsel and
her clients have a right to present issues that are arguably correct, even if it is extremely ,
unlikely that they will win ....[A claimjthat is simply without merit is not by definition frivolous
and should not incur sanctions.Counsel should not be deterredfrom filing such[claims]out of
a fear of reprisals. p,(California Teachers Assn.v. State of California!]999)20 Cal.4th
327.340.975 P.2d 622.84 Cal.Rptr.2d 425.auotingIn re Marriage ofFlaherty!1982)31 Cal.3d
637.650.183 Cal.Rvtr.508.646P.2d 779J7.These rights are also emphasized by
First,Seventh,Fourteenth Amendment(App D,p.99).(See Unconstitutionality). Access to
Courts, and meaningful rights to be heard are rights that the State deems as a “protected
interest.” 1 Zeigler andHermann,47N.Y. U.L.Rev.at 205-06(cited in note 2)(pro se litigants
deserve fair and efficient screening of their claims)].See Opinions on Rights ofPro Se
Litigants,p A 05) .These constitutional guarantees are not subservient to FRCP 8 technicalities
cited by Judge Ishii.

31http://www.courtinfo.ca.gov/programs/equalaccess/documents/selfrep07/Ethical/May 07 Ethical Issues.ppt
32 “The Court ofAppeals ’ departure from the liberal pleading standards set forth by Rule 8(a)(2)is even more
pronounced in this particular case because petitioner has been proceeding,from the litigation’s outset, without
counsel.A document filed pro se is “to be liberally construed, ” Estelle,429 U.S.,at 106,and ‘ a pro
secomplaint, however inartfully pleaded, must be held to less stringent standards than formal pleadings drafted
by lawyers, ” ibid, (internal quotation marks omitted). Cf Fed Rule Civ.Proc.8(f) (“All pleadings shall be so
construed as to do substantial justice ”).]
27

f. Conflict Between US laws and NZ laws makes The Judgements Void

Under COGSA,Harter Act(p.67-68),US retains jurisdiction on any disputes arising from the
BOL # 2114544 (App F, 154,Arrival notification).Therefore,NZ Courts had no jurisdiction to
adjudicate on this dispute,and all orders made in New Zealand against me,are void for clear
lack of jurisdiction.Among other damages,the defendants are liable jointly or severally for
the damages inflicted on me due to intentional misrepresentation of facts,and laws,in New
Zealand Courts and abuse of process.
Arguably, even if one were to ignore US laws,and US jurisdiction,New Zealand is a
signatory to Hague-Visby Rules,which are reflected in the Maritime Transport Act.( p.364368)which was also violated.
Under all of these laws if the concluding multimodal operator wishes to be released from
liability,he/she must prove that he/she is not guilty of loss,damage,or delay in the delivery of
the goods.If the goods have not been delivered within 90 consecutive days following the date
of delivery,the claimant may treat the goods as lost and the carrier becomes liable for the
damage incurred because of a delay,unless the reason for the delay is any fact that excludes
the carrier’s liability for the loss of or damage to the thing33.This unity system makes the
concluding multimodal transport operator responsible person for the entire transport,
separately from the contracts of transport branches.
Defendants actions,and the New Zealand Judgments against me represent violations of
shipping laws because they grant the concluding multimodal transport operator the
opportunity/authority to dissociate themselves from the chain,and thus fraudulently evade
liability for damage to the cargo - which is the very act the international,US or NZ shipping
laws intended to prevent.They assist CRL in arbitrarily creating the exception by fraudulently
imposing bankruptcy on me(p.223-240).The Courts had no authority to grant such
dissociation.or help CRL in fabricating such exception thru ffaud.The Judgments are void for
excess of jurisdiction.
These questions and more could never be reached earlier.In view of the inseparability of
the multimodal transport operators from the chain of operators,these federal questions are of
paramount importance as they affect the rights of the US Citizens worldwide.The Court is
required to address the conflict in public interest.
5. Void Judgments - Are These Judgments Made In Absence or In excess of Jurisdiction
and are therefore Void ?
Eastern District Court's Dismissal Is Void

The Court dismissed my complaint primarily on the basis of FRCP 8(a)(2)which states that a
pleading that states a claim for relief must contain: “a short and plain statement of the claim
showing that the pleader is entitled to relief. "Constitution does not impose any limitations on
individual’s speech wrt to his Petitioning rights.However,Rule 8 imposes a limitation that is
fundamentally not just constitutionally vague but also incompatible with the concept of access
to justice,and meaningful opportunity to be heard because it simply limits these constitutional
guarantees,when neither the Framers,nor the Congress specifically prescribed any limits on
these guarantees.On the contrary,the US Constitutions have always meant to vehemently
protect and guard victims’ rights to petition for redress(See for example Victims Bill of
Rights),and common laws hold that Plaintiffs allegations must be taken to be true and the pro
33 Pending dispute is not a ground for failure to deliver.
28

se complaints must be liberally construed.Therefore,the use of Rule 8 to silence
anyone,especially pro per citizens bringing legitimate claims to Court,is incompatible with the
constitution,and with Supreme Courts precedents on pro se litigant claims, and therefore
unconstitutional.
The meritorious complaints that are “argumentative, prolix, replete with redundancy,
and largely irrelevant” as Judge Ishii called my complaint, do not deserve to be
dismissed because a liberal construction can establish the merits of the case even in these
conditions.The prolixity, argumentativeness, or redundancy is not mutually exclusive to
merits of the case, and does not take away the merits of the case.Rather, it enhances the
merits.Therefore. merits of the case are not subservient to the technical requirements of
Rule 8 and the dismissal exceeds the authority of the Court.
Because Judge Ishii has used Rule 8 to adjudicate factual questions in nonfrivolous claims
without a trial,dismissal under Rule 8 violates the right of trial by jury guaranteed under the
Seventh Amendment, therefore such a Judgment exceeds the authority of the Court.The right
to jury trial is absolute,since it arises from the constitutional guarantees.
Last,but most important,Rule 8(e)(Construing Pleadings. Pleadings must be construed so
as to do justice)is a substantial part of Rule 8. Judge Ishii’s ruling dismissing my complaint on
the basis of Rule 8 does not show that he construed the pleading so as to do justice. At the very
least, he did not outline how justice was being done thru such dismissal.
Failure to consider this vital clause renders the dismissal to be void,in excess of Courts
jurisdiction.
All Orders from New Zealand Are Void As A Matter Of Law
The Cargo had been loaded in US,and therefore,COGSA,and therefore all disputes related to
the BOL 2114544 were to be covered under COGSA(P.68-77)and HARTER Acts(p.67-68).I
have never ceded jurisdiction,and there was no agreement to cede US jurisdiction on the
matter .But even if one did, for a moment,concede to jurisdiction of NZ Courts,the Judgments
against me are from Disputes Tribunal.Disputes Tribunal did not have jurisdiction to handle
disputes in excess of $15,000.Therefore,it is obvious that the claims raised herein could not
have been raised in the Disputes Tribunal.Further,Disputes Tribunal only has jurisdiction over
claims involving breach of contract.lt does not have jurisdiction over criminal statutes,and/or
tort claims.Therefore,the Judgments from NZ limiting this multimillion dollar claim to
$15,000 and then dismissing it, are void as a matter of law for lack of subject matter
jurisdiction.
Additionally,the Seventh Amendment(Amendment VII)to the US Constitution(App
D,p.99),codifies the right to a jury trial in civil cases. Article I,Section 16 of the State
Constitution also makes the jury trial an inviolable right. CCP 631 also preserves litigants’
right to jury trial.The immunities and Privileges Clause of the Fourteenth Amendment holds
that ‘Wo State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the US.” (See App D,p.99).Deprivation of trial robbed me of my due process
rights guaranteed under the constitution.Therefore,the NZ Judgments are void on this basis
also.
Additionally,American Rule holds that each party is responsible for its own legal costs,unless
an award is statutorily permitted.Here,the litigation in New Zealand resulted in void orders in
clear absence of jurisdiction,and those based on fraud,fraud upon the court,and therefore were
in excess of Courts’ jurisdiction.CRL was not entitled to attorney fee of over $30,000 and the
29

government was not entitled to an additional $30,000 or so in fee etc.Further,the Eighth
AmendmentApp D,p.99) prohibits cruel and excessive fines.Having me declared
bankrupt,and forcing me to pay $60,000 to defendants when I lack the ability to pay these
fines,constitutes violation of my rights under Eighth Amendment, especially when I was
robbed of all my belongings collected over the past 59 years.
Certiorari Corrects Void Judgments Made In Excess Of Jurisdiction

These void Judgments are unenforceable,and therefore must be rescinded/vacated.(See
Opinions on Void Judgments Am E,p.l05-106).0nly Certiorari can correct such excess of
jurisdiction and the orders made in clear jurisdiction.
6. Petition Must Be Granted To Maintain Consistency Of Decision Making (Splits)
Which Court Has Jurisdiction, Who Is Liable & What Is The Liability

Given the fact that defendants have destroyed the BOL that had been issued by
SHIPCO, the question arises that in such cases, which Court has juriscition over the claims
arising out of this dispute, and what is the nature of those claims.Whereas COGSA and
HARTER Acts state that the US Courts have jurisdiction on the Cargo departing from or
arriving in US, the Maritime Transport Act of NZ (p.364-368) states that NZ Courts have
jurisdiction on disputes arising of all cargo departing from or arriving in NZ.This Court is
required to resolve this split.
The decision from New Zealand Court absolve the multimodal carriers from liability for
damages to the cargo. This is a policy decision that is evidenced in repeated violation of the
rights of the victims thus defrauded in NZ.In fact, the defendants, each one of them, declare
with impunity, openly, that they are not liable for any damages to the cargo that they handle
on behalf of overseas movers.Such speech and actions are in violation of Hague Rules, Hague
Visby Rules, and US and even the NZ shipping laws, but are protected and encouraged by
governmental rulings, as the transcripts of the hearings in various Courts of New Zealand will
show.
Court of Appeals decision regarding cargo liability in the Kirby v.Norfolk
Southern(2004) is similar where Kirby made arrangements with and received a BOL from an
NVOCC for transportation from Australia to an interior point in the U.S.The equipment was
damaged while being transported by rail in the U.S.and Kirby sued the railroad(Norfolk
Southern).The Court found that the ocean carrier's BOL was ineffective in applying the
nonnal cargo liability limits to the Norfolk Southern railroad.Further,that the NVOCC's BOL
was similarly ineffective because Kirby had no contractual relationship with the railroad.This
ruling,if upheld,would have meant that the liability limits in an ocean earner's BOL would not
protect the ocean carrier,or its subcontractors,when an NVOCC customer's cargo is
damaged.The case also raised the issue of whether there would be uniform federal maritime
law in the U.S.covering such cargo claims or whether there could be a profusion of different
state laws being applied.Upon Certiorari , the Supreme Court of the US held that an NVOCC
acts as an agent for a shipper for the purpose of accepting limitation of liability provisions in
an ocean carrier's BOL,thereby binding the NVOCC's shipper to the limitations in the ocean
carrier's BOL.
The caselaw merely establishes the fact that international shipping laws apply and the
concluding multimodal transport operator cannot dissociate itself for the purpose of
30

liability .The specifics of how they employ can only be determined after discovery is
completed.
The recent rulings on\Kim v.Kimm.884 F.3d 98(2d Cir.2018)]Joy the Second Circuit
narrowed the dismissal of claims based on a single lawsuit,but left the door open for courts to
consider those civil RICO claims alleging predicate acts that “amount[]to far more than mere
‘litigation activities,’ and ...[involve]extensive and broader schemes to defraud” or that
involve a fraudulent criminal scheme “entirely external to,and independent of,any of the
particular disputes between the litigants in the civil actions that were improperly filed and
litigated by the ... defendants in execution of their scheme” consistent with US v.Eisen,974
F.2d 246(2d Cir. 1992). See Curtis & Assocs.v.Law Offices ofDavid M.Bushman, 758
F. Sudd. 2d 153.176(E.D.N. T.2070Taff d sub nom. Curtis v.Law Offices ofDavid
M.Bushman.443 F.Add’x 582(2d Cir.2011)(Quoting Nakahara v.BalNo.97 CIV.2027,1998
WL 35123,at *9(S.D.N.Y.Jan.30.1998)).
The question before this Court here is this - which court has jurisdiction, who is liable,
what laws apply when the cabal gangs up to destroy the BOL, and how these acts must be
treated.
Inconsistent Ruling On Fee Waiver
Article 10(Everyone is entitled in full equality to a fair and public hearing by an independent
and impartial tribunal,in the determination of his rights and obligations..), first
amendment(“rzg/tf to petition”)md fourteenth amendment(meaningful opportunity to be heard),together guarantee justice.The government enables access to justice by providing fee
waivers to parties who otherwise would not be able to afford litigation.This is necessary for
indigent victims of crime.His refusal to grant me fee waiver prevented me from serving the
summons and complaint on the Court,and from utilising USM285 - and is an invited error.At
the very least, he could have ordered service thru USM285, at my cost.My financial conditions
were worse in 2017 than they are today — I was homeless at the time,living in a religious
shelter.I have a fee waiver on all my state actions related to family law matters - starting from
Superior Courts up to Supreme Court of Califomia.(See List OfRelated Cases, in Petition for
Writ Of Certiorari 19-8852). Yet Judge Ishii prejudicially denied my fee waiver when I first
filed the complaint.He lacked the authority to deprive me of fee waiver.In fact, after
dismissing my complaint,Judge Ishii granted my fee waiver for the appeal in 2018,even
though there were no significant changes in my circumstances.Therefore,his refusal to grant
me fee waiver for the complaint in 2017 was inconsistent with other state and federal rulings
on fee waivers and with his own assessment of myfinancial situation a few months later. These
suffice and Appellate Court should have a “definite andfirm conviction that the Court below
committed a clear error ofjudgment” as per the standard of review for fee waivers[See
O ’Louehlin v.Doe. 920 F.2d 614.617(9th Cir. 1990) /.
Substituted service
See section titled Service To Defendants Despite repeated services, and mailings, each
defendants refused to sign waiver of service.RM4U has a fake business address[See 18 USC
1342] .TALBOT repeatedly provided false service addresses.Defendant had adequate notice of
dispute because all complaints were repeatedly mailed and emailed to them.Given their
evasive conduct,District Court was without authority to deprive me of USM285 service
facility and deprive me of permission for substitute service.See Transamerica
31

Corv.v. TransAmerica Multiservices lnc.et al.,No. 1:18-cv-22483(S.D.Fla.)34 Federal courts
have granted motions for “substituted service” in cases of fictitious and anonymous websites
registered to individuals and entities.The split between these two stances taken by state and
federal court must be resolved.
Other Courts hove Ruled Differently On Conspiracy
Judge Ishii acted as a tryer of facts, and declared that allegations were implausible.The
Schemes and Artifices point to meeting of the minds to defeat ends of justice by influencing
the activity of the NZ state. [See United Bhd of Carpenters & Joiners Local 610 v
Scottf1983)463 US 825.1035 Ct 3352,77 Led 2d 10449 113 BNA LRRM3145 32 CCH EPD
33697.97 CCHLC 10231 /.Other Circuit Courts have held that such a collective criminal
agreement—[ajpartnership in crime—presents a greater potential threat to the public(Iannelli
v. US.420 U.S. 770.778(1975).auotin£ Callanan v. US.364 U.S.587,593-94(1961)-Also see
Hammerschmidt v. US.265 U.S. 182(1924)1.
Slavin v Currv.574 F.2d 125675th Cir.l978)is a_similar case where.Slavin sought and
was denied a liquor license_for his restaurant.He threatened the police that he would seek
damages.Over the next few years,he was then subjected to deprivation of his civil rights under
color of law, even jailed.In 1976 he filed a complaint and prevailed.This case is strikingly
similar-in both cases,the victim was subjected to threats,harassment,illegal use of
governmental authority.
When the complaint is read with the required liberality, however, it asserts a
single,continuing conspiracy. That is, it reveals a conspiracy that began with the
intention of denying[plaintiff]the equal protection of the laws& continued by
obstructingjustice& denying due process in an attempt to conceal the complicity in
the first action. The complaint recounts a number of incidents. While they state
separate causes of action against individual defendants, they charge participation in
a single conspiracy. The district court erred in treating the incidents as alleging only
separate causes of actionfSlavin v.Currv,575 F.2d.l256,1265(5th.Cir. 1978)1.
Although there is no direct evidence of an unlawful agreement between defendants,the
agreement between conspirators may rest simply upon the tacit assent & acquiescence[ ffyattv
Union Mortgage Companyfl979)24 Cal 3d.773.785-78657Cal.Rptr.392,598
P.2d.45;Holder& Home Savinss& Loan Association )1968)267 Cal,App,2d.91,108,72 Cal
Rptr. 704].The agreement to conspire may be shown by circumstantial evidence that shows a
common intentlPeters on v Cruickshank(l956)l44 Cal.App. 2d. 148,300 P. 2d. 915]-here the
intent was to extort more money from me than they were entitled to,and then,defendants
conspired to conceal documents,make false representations before FMC,before CDI,and
before New Courts - to illegally evade jurisdiction of US Courts,with the goal of avoiding
liabilities under the laws of US.The conspiracy renders the Judgments from NZ
unconstitutional. Also see Opinions on Conspiracy,p. 111-115.
Other Courts Have Ruled Differently On Violation Of RICO & Claims against Foreign Sovereigns
Each of these defendants have committed at least 2 predicate acts in furtherance of the
open ended conspiracy, and none of the actors has exited yet.Interconnectivity and networking
arising from repeat business between these members of the alleged enterprise,ensures loyalty
34 See Transamerica Corv.v. TransAmerica Multiservices lnc.et al.,No.l:18-cv-22483(S.D.Fla.) U.S.District
Court for the Southern District of Florida granted an order authorizing service of process by electronic mail in
a case where the plaintiff was unable to make personal service due to evasive conduct by the Defendants.
32

between members of the enterprise.This enforces the quid pro quo nature of relationships,and
mitigates the risk of being reported.None of the parties will report the other,because these quid
pro quo arrangement ensure collective favorable results,and continuation of the
enterprise.Such an organized arrangement constitutes a RICO enterprise,engaged in a
conspiratorial agreement to defraud innocent consumers.I am not the only victim of these
defendants.See AppH,p.368-2.At least 120 additional victims have been identified since.In
addition to my own website on facebook,there is another private group of over 100 victims of
CRL.See FMC-19-03,a complaint filed by another consumer Mohd Rana-relocating from
US to Pakistan.(App G1 Complaint,G2 Brief,G3 Response,G4 Decision,p.2413 3 8)35.Regardless even if I were the only victim, the evidence exhibits a threat of
continuity.[18USC 1962(c ):(US v Coonan.938 F2d, 1553.1560(2nd Circuit 1991)cert denied
112 S Ct 1486(1992)- affirming, RICO conviction when members chansed over time);US v
Scotto.641 F2d 47,54(2nd Cir.l980);Sun Savings & Loans Assn v
Dierdorff.825.F2d. 187.195(9th Cir. 1987);US v Blackwood. 768 F2d, 131.137- 38(7th
Cir.1985). Several defendants had day to day control over the proceedings,and they
manipulated the proceedings \NCNB National Bank ofNorth Carolina v
Tiller. 814.F2d. 931 (4th Cir. 1987) 7, a nexus exists between control of enterprise,and alleged
racketeering activity!Shearin v E F Hutton Group Inc,885 F2d 1162,1168,n.2(3rd
Cir, 1989). Merely belonging to an enterprise is not by itself a crime RTS v Castilano(1985,SE
NY)610 Fed Suvv 7359/until members conspire to commit a crime.
Courts have held that the legislative intent behind enactment of statutes enshrined in 18
USC 1962 et seq(AppD,p.87-94)are prevention of organized crime that affect interstate or
international commerce.RICO Act is not merely to compensate victim,but to turn them into
prosecutors dedicated to eliminating conspiratorial deprivation of rights,and racketeering
activityfRotella v Wood(2000)528 US 549120 S CT 1075.145 L Ed 2d 1047,2000
CDOS.13571.The purpose of such legislation is to prevent and punish financial infiltration
and corrupt operations of legitimate business operations affecting interstate commerce [US v
Sutton(1979.CA6.Qhio)605 F2d260],and to impose enhanced sanctions on those who engage
in racketeering activities!US v Yarbrou2h(1988,CA Wash)852 F2d 15221.Offenders should not
be able to escape liability under RICOrUSProvenzano,620,F2d.985,993(3rdCir); US
v.Sutton.605.F2d.260.264.(6th Cir).
Other circuits have held that government enterprise may be a group of individuals
associated in fact “rather than a legal entity within 1961141! US v Stratton, 694
F2d, 1066,1075(5th Cir, 1981): US v Baker. 617,F2d, 1060(4th Circuit. 1980).
Public officials are not immune from RICO actions even if governmental entities could not be
charged as the enterprise.The governmental officials - like several NZ state officials who
endorsed the policy of absolving the multimodal transporter of liabilities in violation of
Hague-Visby Rules and Marine Transportation Act-might themselves be charged as a criminal
association in fact enterprise!US v Turkette,452 US 576,580(1981);Kearney v Hudson
Meadows Urban Renewal,829 F2d, 1263,1266(3rd Cir, 1989);US v
Benny, 786,F2d,1410,1416) /.There are greater than 30 reported cases holding that even a
35 Also note the false representation made by MICHELLE FRANKLIN,RM4U to FMC about this case in her responsive brief filed with FMC against Mohd Rana.Ms FRANKLIN informs FMC that I had no money
to pay therefore my cargo was held up and liquidated.Previously FIONA, and her employees are had lied, and
presented forged documents before the courts in NZ.Judge Ishii has been attempting to protect habitual
criminal offenders.
33

government entity may be an enterprise.Government enterprise may be a group of individuals
associated in fact rather than a legal entity within 196\(4)\US v Stratton,694
F2d,1066,1075(5th Cir, 1981):US v Baker.617.F2dJ060(4th.Circuit, 1980); US v
Castilanof1985.SE NY)610 Fed Sudd 13591These include government agencies,courts,etc[US
v Thompson,685.F2d.993 999(6th CirJ982):US v Freeman.6F3d.586 596-597(9th Cir,1993 offices of CA 49th Assembly District);US v Alonso, 746,F2d.862,870(11th Cir, 1984)- homicide
section of Dade County,Public Safety DepithCS' v Ambrose. 740,F2d,505„512, (7th
Cir, 1984)Police dept:US v Davis, 707,F2d,880,882-883;US v Thompson,6th Cir, 1982 Tennessee Government Office etc etc;US v Frumento,405.F Sudd,23,29-30(E.D Pa 1975)aff’d
563 F2d. 1083(3rd Cir, 1977),Cert denied 434, US 1072fl978).ThQ Frumento decision is
consistent with RICO’s purpose of ridding the nation’s economic life of the”cancerous
influences of racketeering activity”_Also see 18USC 1962(c ):US v Scotto,641 F2d 47,54(2nd
Cir, 1980);Sun Savings & Loans Assn v Dierdorff,825,F2d,187,195(9th Cir, 1987);US v
Blackwood, 768 F2d,131,137 - 38(7th Cir,1985).Several defendants acquired day to day
control over the proceedings thru their political lobbying, and corruptly influenced judicial
officers in New Zealand to manipulate the proceedings \NCNB National Bank ofNorth
Carolina v Tiller.814.F2d.931 (4th Cir,1987)l.a. nexus exists between control of enterprise,and
alleged racketeering activity\Shearin v E FHutton Group Inc,885 F2d 1162,1168,n.2(3rd
Cir, 1989).
Here,the parties have been litigating for the past 6 years,with defendants obstructing the
course of justice thru forgery,perjury,and false declarations before courts.The Schemes &
Artifices are the modus operande of these defendants,and they repeat these offenses over
hundreds of consumers every year.Hence a need for a deterrant. Despite being a signatory of
the Hague-Visby Rules, NZ government is reluctant to accept jurisdiction of US courts on
cargo originating from US,and fails to enforce maritime Transport Act(p.364-368),which is a
reflection of Hague Visby Rules. Therefore, freight forwarders in New Zealand routinely
dissociate themselves from the multimodal transport chain and demand to be paid twice. NZ
govemment/DOJ is complicit in supporting the alleged enterprise,and their failure to prevent
and punish such crime constitutes breach of their fiduciary duties to their citizens.
In Southwav v. Central Bank ofNiseria,198F.3d 1210(10th Cir. 1999),the Tenth Circuit
held that the FSIA(App D,97-98)does not preclude subject-matter jurisdiction for civil RICO
claims against foreign sovereigns.36.The Tenth Circuit explained that the FSIA(App D,p.9798)does not refer to foreign sovereign immunity in the criminal context. Southway, 198 F. 3d at
1214-15. Therefore,the defendants’ argument,which relied on criminal immunity under the
FSIA,necessarily failed.Id.at 1214-15 & n.4.Tenth Circuit held that plaintiffs’ civil RICO
claims were viable and relied on the FSIA’s broad language(App D,p.97-98)that provided
jurisdiction over “any nonjury civil action” in which one of the FSIA’s enumerated exceptions
36 In Southway,a group of plaintiffs filed a complaint naming as defendants,among others,the foreign
sovereigns the Central Bank of Nigeria and the Republic of Nigeria(collectively,defendants).Id.at 121213.The complaint alleged that,in violation of RICO,the defendants conspired with one another to defraud and
commit theft against the plaintiffs.Id.at 1213.As here,the plaintiffs alleged various predicate acts for purposes
of their civil RICO claims,including mail fraud,wire fraud,and the transfer of stolen property .Id.at 1213.The
defendants moved to dismiss for lack of subject-matter jurisdiction under the FSIA arguing,in relevant
part,that:(l)a foreign sovereign is immune from criminal indictment under the FSIA,(2)the predicate acts
forming the basis of the plaintiffs’ civil RICO claims were therefore not indictable acts,and(3)the plaintiffs’
civil RICO claims necessarily failed.Id.at 1213.The district court denied dismissal,and the defendants
appealed.Id.at 1213-14.
34

applied.Id.at 1215-16.The appellate court also relied on the fact that RICO’s language dealt
with indictable “acts,” and not indictable “actors.”.Thus,the Tenth Circuit opined that
Congress which viewed sovereign immunity under the FSIA as an affirmative
defense, “[sfurely viewed commercial acts such as those in which Defendants ...allegedly
engaged,as ‘indictable ’for purposes of a civil RICO claim.”. Tenth Circuit determined that
the FSIA conferred subject-matter jurisdiction for civil RICO claims against foreign
sovereigns,as Ions as one of the FSIA’s enumerated exceptions applied.
In Keller v.Central Bank ofNigeria,277 F.3d 81I(6th Cir.2002),the Sixth Circuit rejected the
Tenth Circuit’s analysis in Southway,and held that foreign sovereigns were not indictable,and
therefore could not commit the predicate offenses.Id.at 819-21.The Second Circuit has not
addressed this circuit split,even though the issue was presented for review in Kensington
Intern.Ltd.v.Itoua.505 F.3d 147(2d C.ir.2007).See 2006 WL 5691424,at **43-45(Initial
Brief).The Eleventh Circuit has recognized the split,but resolved the issue on waiver
grounds,thereby avoided the merits.US v.Campa,529 F.3d 980,1000-01(11th Cir.2008).Some
district courts agree with the Sixth Circuit and hold that criminal immunity applies for foreign
sovereigns under the FSIA,barring RICO claim .Dale v. Colagiovannl 33 7 F.Supp.2d 825,842843(S.D.Miss.2004. Other courts have allowed RICO claims to .proceed against foreign
sovereigns.See,e.g.^Kensington Intern.Ltd.v.Societe Nationale Des Petroles Du Congo,05
CIV.5101 (LAP),2006 WL 846351,at *13(/S.D.N.YMar.31.2006)sev,d in part,vacated in part
by Kensington Intern.Ltd.vJtoua.505 F.3d 147(2d Cir.2007)(\mthout addressing the question
herein)\see also Am.Bonded Warehouse Corp.v.Comoagnie Nationale Air France,653
F.Sudv.861 fN.D.IU.1987).And still other courts have held that the FSIA does not provide
any shield from criminal proceedings.S'ge In re Grand Jury Proceeding Related to M/V
DELTUVA, 752 F.SuppJd 173.179-80(D.P.R.2010). Also see Opinions on RICO,p.l 15-116.,
Other Courts Have Ruled Differently On Void Orders
Judgments made by Eastern District Court,NZ Courts are in excess of Court’s jurisdiction and
therefore are Void as a matter of law,for fraud upon the court (Opinions on Fraud Upon the
Court.App E.p. 109-110)..deprivation of civil rights under color of law,and violation of
RICO.(See Opinions on Void1 Judgments .App E.p. 105-106). No Court has the authority or
jurisdiction to a)ratify a void order b)refuse to declare a void order null and void.Certiorari
must be granted to correct these void Judgments made in clear excess of NZ jurisdiction.
7. Unconstitutionality
a. Unconstitutional For Excess Of Jurisdiction

See section titled Conflict Of Laws Dismissal on the basis of FRCP 8 deprives of due process
as enshrined in the constitutional guarantees of First AmendmentAppH,p.345,440),Seventh
Amendment[App C,p. 108],Fourteenth Amendment ,also reflected in the State Constitution
Article 1,Section 16.Further,as argued elsewhere,Judge Ishii failed to consider the Rule 8(e ),
interpreted to mean that any Court must consider the balance of justice.Failure to do renders
the dismissal in excess of the Court’s jurisdiction.
b. Unconstitutional For Fraud,Conspiracy,Violation of RICO

Although there is no written agreement alleging conspiracy,the evidence points to a
meeting of the minds.Perjury, forgery, obstruction of justice,misleading and misrepresentation
to Judicial officers provide sufficient circumstantial evidence of conspiracy used to deprive
35

me of my rights under color of law,casefixing.These offenses are against US 18USC2] and
must be discouraged in the strongest possible wav. 1 Cox v.Burke, 706 So.2d.43,47(Fla.5th DCA
1998)1 In re Village ofWillowbrook37 III.App. 3d.393(1962)1.NZ government became guilty
of relieving, comforting or assisting the offenders in order to hinder or prevent their
apprehension trial or punishment[18USC3J. The complaint alleges ongoing
conspiracy,recognized as a continuing offense f US' v.Neusom 159 F.App ’x
796(9th.Cir.2005):\JS v.Kissel,218 U.S.601610(1910).(See Opinions on Conspiracy,App
E.p. 111-115.Opinions on RICO Violations.p.l 15-116))Also see_ Other Courts Have Ruled
Differently On Conspiracv)The repetitive,and the organized, and conspiratorial, nature
supports the allegations of RICO violations(See Opinions About RICO Violations, App
E,p.448-449).Concealing these conscious shocking crimes under the cloak of Bankruptcy
Laws/COGA and inciting various Courts into making void orders against me, establishes
criminal intent, and constitute fraud upon the NZ Courts.See Opinions on Conspiracy,App
E.p.lll-114,(See Opinions About RICO Violations, App E,p.l 15-116)„ Opinions on Fraud
Upon the Court.App E.p. 109-170.This Court must not remain impotent to rectify such
extensive fraud upon the Court[see Tirouda v State,No.2004-CP-00379CQA.Missisippi,2005) 1
Whenever any officer of the court commits fraud during a proceeding in the court, he/she is
engaged in ‘fraud upon the court” It is where the court or a member is corrupted or
influenced or influence is attempted or where the judge has not performed his judicial function
— thus where the impartial functions of the court have been directly corrupted, "fBulloch v
US763.F.2d.l 1151121 (10th Cir1985)1.It “embrace that species offraud which does or
attempts to defile the court itself or is a fraud perpetrated by officers of the court so that the
judicial machinery can not perform in the usual manner its impartial task of adjudging cases
that are presentedfor adjudication” fKenner vC.I.R.387 F.3d.689(1968);7 Moore's Federal
Practice2d. ed. o512*\ 60.231.It is clear& well-settled that any such attempt “vitiates the entire
proceedings ”JThe People of the State ofIllinois v.FredE Sterlins357111354; 192
NE229(1934)l
8. Petition Must Be Granted Because Violation of Civil Rights Under Color Of Law &
Statutes
Causes of action under 1985(App C,p.l08)exist under Fourteenth Amendment(App
C,p.l08)where Plaintiff can allege facts that tend to show that defendants conspired to incite
and/or corruptly influence public officials/judicial officers to exceed bounds of their
jurisdiction as CRL and their attorneys did in this case.Courts have held that_Conspiracy in
context of 1985(3)means that co-conspirators have agreed at least tacitly,as here,to commit
acts which will deprive Plaintiff of equal protection of US laws[See Santiago v
Philadephia(1977,ED Pa)435 F Supp 736.1 .The extensive misrepresentations constitute
violations under 42 USC 1983,1985,and 1986(App C.p.l03-106Uf 42 USC 1985 refers in
precise terms suit for damagesJSupreme Court may fashion effective equitable
remedy fM/ze// v North Broward Hospital District(1970.CA 5,Fla)427 F2d 468J.
“The trial court's discretion is not absolute: ‘The discretion intended...is not a capricious or
arbitrary discretion,but an impartial discretion,guided and controlled in its exercise by fixed
legal principles.lt is not a mental discretion, to be exercised ex gratia, but a legal discretion, to
be exercised in conformity with the spirit of the law and in a manner to subserve and not to
impede or defeat the ends of substantial justice. "(Bailey v. Taajfe(1866)29 Cal. 422,424.).
36

Judicial power is never exercisedfor the purpose ofgiving effect to the will of the
Judge; always for the purpose ofgiving effect to the will of the Legislature; or,in other words,to
the will of the law. "fOsborn et al.v. The Bank of the United State (1824, U.S.)9 Wheat. 738,866. /
“The failure to exercise discretion is an abuse of discretion. ” ln\Dickson,Carlson & Campillo
v.Pole.83 Cal.App.4th 436,449(2000)1.
Additionally, under American Rule each party bears their own attorney fee unless
statutorily authorized.Here,despite being victimised, New Zealand Courts have imposed on me
attorney fee &costs of $60,000.Causes of action under 1983,1985,1986(App C,p.l03106)exist where facts show that these NZ Actors exceeded their authority.
COGSA(P.68-77)(p.77-87),and Harter Acts(p.67-68)establish jurisdiction of US Courts
arising from the BOL prepared by SHIPCO.Defendants conspired to violate my constitutional
rights by obstructing justice thru perjury, forgery, misrepresentations of facts and laws,
preventing me from petitioning US Courts,preventing jury trials, and to have US laws equally
applied, to seek protection from excessive fines.Congressional freedom and intent in
prevention of crimes of restricting such freedom is embodied in statutory schemes 42 USC
1981,42 USC 1983,42 USC 1985(2)and(3)and 42 USC 1986(App E,p.376-378),characterised
as felonies under federal laws.
“every person, who, having knowledge that any of the wrongs conspired to be done,and
mentioned in section 1985 of this title, are about to be committed,and having power to
prevent or aid in preventing the commission of the same,neglects or refuses so to do,if
such wrongful act be committed,shaU be liable to the party injured, or his legal
representatives,for all damages caused by such wrongful act, which such person by
reasonable diligence could have prevented;and such damages may be recovered in an
action on the case;and any number ofpersons guilty of such wrongful neglect or refusal
may be joined as defendants in the action(42 USC 1986,App D,p.97)
If a party has potential to stop illegal activity but fails to do so,then that party may be
said to have impliedly conspired in such illegalities!'Dickerson v US Steel Corp(1977,ED
Pa)439 FSudd.55.15 BNA FEP Cas 752 15 CCHEPD 7823,23 FServ 2d 7429/.Here,the
defendants, their attorneys, and the NZ government became willing participants
instead( 1985).Such a collective criminal agreement—[ajpartnership in crime—presents a great
potential threat to the public(Iannelli v.US.420 U.S.770,778(1975),quoting Callanan v. US,364
U.S.587,593-9471961) -Also see Hammerschmidt v.US.265 U.S. 182(1924)1.Also see Opinions
on Civil Rights Violation(p. 107).Qnce the deprivations are identified,the courts must then
determine how much process is due the civil pro se litigant.See Mathews v.Eldridge:
1. The private interest that will be affected by the official action;
2. The risk of an erroneous deprivation of such interest through the procedures used,and
the probable value,if any,of additional or substitute procedural safeguards;
3. The Government's interest,including the function involved and the fiscal and
administrative burdens that the additional or substitute procedural requirement would
entail.if the cost of such error is less than the cost of reducing the error,then efficiency
considerations tell us to tolerate the error.[ Carroll Towins, 159 F.2d at 173.Posner,
Economic Analysis ofLaw at § 21.1 at 517- 18(cited in note 121)1
Private interest

Defendants have cheated me of my property, converted my goods and funds, and the NZ
government has wrongfully extorted approx.$45,000 from me till date under threats of
37

selling off my primary residence.NZ proceedings and Judgments deprived me of due
process,within the meaning of the due process clause embedded in the fourteenth
amendment.My property was simply confiscated and sold.Additionally, conspiracy to wilfully
deprive a person, or cause to be deprived, of their rights,privileges,and immunities secured or
protected by the Constitution and laws of the U.S statutes are Punishable with fine or
imprisonment of up to one year,or both. 18 USC 241,242].
Interests comprehended within meaning of either liberty,or property under procedural
guidelines of due process clause of 14th amendment include interests that are recognized,
protected by the state law and interests guaranteed in one of the provisions of the Bill of
Rights incorporated in the 14th AmendmentPaul v Davis (1976)424 US 693,47L Ed 2d 405,96
S Ct 1155JBNAIER Cas 1827 reh Jenl.The 14th amendment also gives everyone a right to
due process of law\Jones v District of Columbia(2003,DC Dist Col)273 F Supp 2d (571 •
Dismissal of my complaint infringes on my Civil Rights [42 USC1985(1),(2) and(3),
1986,AppD,p.95-97] .Liability is ascribed under 1985(3)when attempts to have charges
brought against co-defendants were suppressed by public officers acting under color of
lawfAzhar v Conlev(1972. CA6 Ohio)456F2d 1382.15FR Serv 2d 1179/.Co-conspirators have
agreed at least tacitly,to commit acts which will deprive me of equal protection of US
laws [See Santiago v Philadenhia(1977.ED Pa)435 F Sudd 136.] .The aim of the conspiracy
has been to influence the activity of the state[See United Bhd of Carpenters & Joiners Local
610 v Scott(1983)463 US 825.1035 Ct 3352.77 Led 2d 10449 113 BNA LRRM 3145 32 CCH
EPD 33697.97 CCHLC 10231 /.Judge Ishii failed to prevent crimes against me[ See
Dickerson v US Steel Corn(1977.ED Pa)439 F Sum,55,15 BNA FEP Cas 752 15 CCHEPD
7823.23 F Serv 2d 14291.
Circuit Courts have held that “[procedural due process rules are meant to protect persons
not from the deprivation,butfrom the mistaken or unjustified deprivation of life,liberty,or
property. ” Carev v.Pivhus.435 U.S.247.259(1978).[Procedural due process rules are shaped
by the risk of error inherent in the truth-finding process as applied to the generality of
cases. \Mathews v.Eldrid2e.424 U.S.319,344(1976)].Am intentional deprivation of procedural
due processes here,is actionable.SQe(Earle v McVei2h.91 US 503,23 L Ed 398;Morrissey
v.Brewer,408 US.471.48U,and imposes constraints on governmental decisions[See Braxton
v.Municipal CourtfS.F.No.22896.Supreme Court of California.October 4,1973.In People v
RamirezFCrim.No.20076.Supreme Court of California. September 7,1979]. Substantive right to
a remedy for injuries is protected by the guarantee of "full and equal benefit of all laws and
proceedings for the security of person and property”." 77ze very essence of civil liberty
certainly consists in the right of every individual to claim the protection of the laws,whenever
he receives an iniurv.One of the first duties of government is to afford that
protection." \Marburv v.Madison.5 U.S.fl Cranch) 137(1 £03)1 .Depriving a person their right to
trial falls outside the curative provisions of California Constitution, Article VI,section
13.(Callahan v.Chatsworth Park.Inc.(1962)204 Cal.App.2d 597,610F22 Cal.Rptr.606];see
Spector v.Superior Court(1961)55 Cal.2d 839.844b13 Cal.Rptr.189.361 P.2d 909["absent a
countervailing state interest of overriding significance,persons forced to settle their claims of
right and duty through the judicial process must be given a meaningful opportunity to be
heard."(Boddie v.Connecticut!1971)401 U.S.at P.377F28 L.Ed.2d at pp.l 18-11 ;Logan
v.Zimmerman Brush Co..455 U.S.422,437(1982)\Little v.Streater,452 U.S. 1,5-6(1981)].
Judge Ishii’s actions deprive me of substantial property rights.Supreme Court of US
traditionally accepts Petitions for Writ of Certiorari where such deprivations under color of
38

law are alleged, where Court orders are in excess of jurisdiction, where foreign orders are
involved. The Court has a duty to declare these judgments void, and compensate this victim of
international crime.The private interests test is in favor of the petition being granted.See
AppE,Opinions on Civil Rights Violations,p. 107-108)
Risk of An Erroneous Deprivation of Interests etc.

Constitutional rights guaranteed by 1st, 7th(App C,108),8th(App C,p.l08), and 14th
AmendmentApp C,108)constitute property under federal law.Here Judge Ishii and NZ Courts
have deprived me, and many like me, of property.This final judgment deprives me of other
procedural or additional safeguards.NZ government has shown its discriminatory bias.
Governmental Interests

Denial of my Petition would not reduce litigation and there is no fiscal or administrative
benefit arising from denial.Granting the Petition may bring to an end the ongoing litigation in
US and in NZ37 and provide a precedent that will protect other innocent consumers.This Court
must exercise its original jurisdiction and appellate jurisdiction in furtherance of justice. 18
USC 4 imposes upon all Courts a mandatory requirement to expose the perpetrators of
crimes against US. [See Opinions on Crimes Against US,Ay>v E,pl05].
Governmental interests are neither advanced thru promotion of a string of constitutionally
void Judgments from NZ and US,nor by denial of my civil rights,nor by promoting and
encouraging “international gangs’Mn this discretionary review involving international crime,
“the failure to exercise discretion is an abuse of discretion. ” [Dickson, Carlson & Campillo
v.Pole.83 Cal.App.4th 436,449(2000)1.It would deprive this Court a chance to establish laws
to prevent such crimes.Govemmental interests are severely compromised by collective
conspiratorial arrangements that seek to profit from commission of international crime and
presents a greater potential threat to the public(Iannelli v.US,420 U.S.770,778(1975),quoting
Callanan v. TJS.364 U.S.587,593-94(1961) -Also see Hammerschmidt v. US,265
U.S.182(1924)1. The law should presume that the government's interest in ensuring court
access, preventing international crime.protecting the citizens of US from crime and criminal
offenders, punishing offenders outweighs the government's interest in the reduction in
subsequent litigation because the government is committed to ensuring that litigants have their
day in court and that all crime is prevented/deterred.
9. Judge Ishii Was Unqualified

A parallel case was filed against a District Court Judge EDWARD DAVILA and 3 other
State Court Judges from Fresno County(See 1-17-CV-01748, Appeal 19-15011).Committee
on Code of Conduct for US Judges, Compendium of Selected Opinions §3.6-6[l](April 2013),
requires disqualification of the entire district when there is a judge in the district being sued as
a defendant, and transfer of a case from the appellate court to the US Supreme Court.[73
WitkinCal.Proc.Aooeal $9171 Judge Ishii failed to do so38.Additionally,Judge Ishii retired
37 Although my RICO claims is dismissed, the nature of ongoing conspiracy allows me to claims against the
defendants, and against NZ government, and Writ of Certiorari to quash the Judgments and Bankruptcy
Judgments against me(p.223-240).All this would be time consuming, resource intensive, and the NZ
governments obvious discriminatory politics of protecting its businesses at all costs, may lead to my
failure.NZ government may also impose severe attorney fee on me, to unlawfully silence me.
38 In US.v.Jordand985)49 D.3d 152. Ft. 18. the 5th Cir.'s majority stated in Footnote 18 that: "Thepublic
may not lookfavorably upon a system that allows one colleague to pass on the impartiality of another
colleague who works closely with the questionedjudge. As discussed.judges sitting in review oj other judges
39

1

within a few months of dismissing my case and it is reasonable to assume that clearing out his
docket was the most important matter to him at the time.This extrajudicial bias may have led
to arbitrary dismissal.lt was an administrative error to schedule a case from a pro se litigant on
his docket under these circumstances.Failure to recuse renders him disqualified and/or the
judgments void.Forcing a meritorious complaint into 50 pages puts limitations on my
constitutional rights.The involuntary bankruptcy gives rise to a case for deprivation of rights
against Judge Ishii, and against the NZ govemment.For these reasons,the Petition must be
granted.
SUMMARY & CONCLUSION

Hundreds of victims are robbed everyday as we speak, by this and others like this cabal.Judge
Ishii was aware that the public was being defrauded, and was mandated to act in public good
to prevent such erime[18 USC 4,42 USC1986] .Instead, he unilaterally tried the case,thus
exceeding his jurisdiction.Dismissal was not in furtherance of justice and only served to pave
way for his own retirement and for further fraud.Granting of the Petition may now protect
potential victims of the enterprise. [See complaint by Mr Rana,p.241-338].RICO may not be
favored, but it is inappropriate to deprive defendants of their substantive rights merely because
those rights are inconvenient in light of the litigation posture plaintiffs have chosen.\City of
San Jose v.Superior Court(1974)12 Cal.3d 447,462f115 Cal.Rptr. 797,525 P.2d 701,76
A.L.R.3d /2231 .Since this case was filed, CRL and its cabal have been instrumental in
procuring a bankruptcy against me in New Zealand(2019).Therefore, there are additional
grounds for seeking declarative relief and NZ government has acted wrongfully .Deterrents are
necessary to protect the public from great,irreparable harm.Over 120 others have been
victimized since.This Court also has original jurisdiction on matters identified in the Petition
and must exercise that original jurisdiction in furtherance of justice.I do not know who
amongst these is responsible for my losses,so I sue them jointly and severally.Given all the
above,my Petition must be granted.
Respectfully Submitted

Madhu Sameer,Petitioner,Pro Se

9/28/2020(NZ)

do not like to cast aspersions, especially upon colleagues in the same district with whom they work so
intimately and confer so frequently." This is an important policy to "ensure public confidence in the
judiciary." Curiev.Superior Court(2001)24 Cal.4th 1057, 1070.
40

